ia
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the
Sixth Circuit,
Opinion in 18-5478,
Issued July 24, 2019 .......................................... 1a–38a
United States District Court for the
Western District of Tennessee,
Order Granting Defendants’ Motion to
Dismiss and Denying Motion to Intervene
as Moot in 1:17-cv-01040-STA-egb,
Issued March 19, 2018 .................................... 39a–91a
United States Court of Appeals for the
Sixth Circuit,
Order Denying Petition for Rehearing
En Banc in 18-5478,
Issued October 16, 2019 .................................. 92a–93a

1a
RECOMMENDED FOR FULL-TEXT
PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0164p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_____________________
STATE OF TENNESSEE, by and
through the Tennessee General
Assembly, et al.,

No. 18-5478

Plaintiffs-Appellants,
v.
UNITED STATES DEPARTMENT OF
STATE, et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Tennessee at Jackson.
No. 1:17-cv-01040—S. Thomas Anderson,
District Judge.
Argued: March 19, 2019
Decided and Filed: July 24, 2019
Before: COLE, Chief Judge; and BOGGS, Circuit
Judge. *
_________________
COUNSEL
* After oral argument, Judge Julia Smith Gibbons was unavailable to participate in the panel’s decision. Chief Judge Cole
and Judge Boggs act as a quorum pursuant to 28 U.S.C. § 46(d).

2a
ARGUED: John J. Bursch, BURSCH LAW PLLC,
Caledonia, Michigan, for Appellants. Samantha L.
Chaifetz, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellees. ON
BRIEF: Richard Thompson, B. Tyler Brooks, Kate
Oliveri, THOMAS MORE LAW CENTER, Ann Arbor,
Michigan, for Appellants. Samantha L. Chaifetz,
Alisa B. Klein, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellees. Sarah
Grusin, NATIONAL HEALTH LAW PROGRAM,
Carrboro, North Carolina, Cody Wofsy, AMERICAN
CIVIL
LIBERTIES
UNION
FOUNDATION
IMMIGRANTS’ RIGHTS PROJECT, San Francisco,
California, for Amici Curiae.
_________________
OPINION
_________________
BOGGS, Circuit Judge. This case presents the
question of whether the Tennessee General Assembly
(“General Assembly”) has standing to file suit on its
own behalf, as well as on behalf of the State of
Tennessee. The General Assembly alleged that the
federal government violated the Spending Clause and
the Tenth Amendment to the United States Constitution through enacting and implementing certain statutes that require states to provide Medicaid coverage
to eligible refugees. The district court dismissed the
General Assembly’s complaint for lack of standing.
Tennessee v. U.S. Dep’t of State, 329 F. Supp. 3d 597,
616–17 (W.D. Tenn. 2018). Because the General
Assembly has not alleged an injury that gives it
standing, and because the General Assembly has not
established that it has the authority to bring suit on
behalf of Tennessee, we affirm the district court’s
judgment.

3a
STATUTORY BACKGROUND
Before turning to the parties’ arguments, we
briefly discuss the statutory schemes that are relevant to this case. In 1980, Congress amended the
Immigration and Nationality Act by passing the
Refugee Act, Pub. L. No. 96-121, 94 Stat. 102 (1980)
(codified in scattered sections of 8 U.S.C.). The
Refugee Act created the Office of Refugee Resettlement (“ORR”) within the Department of Health and
Human Services (“HHS”).1 8 U.S.C. § 1521(a). ORR
administers the Refugee Resettlement Program. See
id. (b). ORR consults with state and local governments
and private nonprofit agencies concerning “the sponsorship process and the intended distribution among
the States and localities before their placement in
those States and localities.” 8 U.S.C. § 1522(a)(2)(A).
The parties do not dispute that states cannot prevent
the federal government from settling refugees within
their borders. See Tennessee, 329 F. Supp. 3d at 607
(citing H.R. Rep. No. 132, at 19 (1985)); see also
Exodus Refugee Immigration, Inc. v. Pence, 838 F.3d
902, 904 (7th Cir. 2016).
The Refugee Resettlement Program assists
refugees in achieving economic self-sufficiency in the
United States through federal grants to provide
employment training, English-language education,
and other skill development. 8 U.S.C. § 1522(a)(1)(A);
Exodus Refugee Immigration, 838 F.3d at 903; 45
C.F.R. § 400.11. States may choose to administer this
1 The Bureau of Population, Refugees, and Migration within
the United States Department of State determines whether
refugees are eligible for resettlement within the United States.
Exodus Refugee Immigration, Inc. v. Pence, 165 F. Supp. 3d 718,
724–25 (S.D. Ind. 2016). This process can take eighteen to
twenty-four months. Id. at 725.

4a
program. To participate, a state must submit a
proposal for ORR’s approval, describing how the state
will “coordinate cash and medical assistance and
other services to promote refugee resettlement and
economic self-sufficiency.” Tennessee, 329 F. Supp. 3d
at 607; 8 U.S.C. § 1522(a)(6)(A)–(C); 45 C.F.R. § 400.4.
If a state chooses not to participate, or withdraws from
participation, then the state does not receive or
administer the grant funding. 45 C.F.R. § 400.301.
ORR may then “authorize a replacement designee or
designees to administer the provision of assistance
and services, as appropriate, to refugees in that
State.” Id. (c); see also 8 U.S.C. § 1152(c)(1)(A), (e)(1);
Exodus Refugee Immigration, 838 F.3d at 905; 60 Fed.
Reg. 33584, 33588 (June 28, 1995). ORR funds thirteen such programs in twelve states. Tennessee, 329
F. Supp. 3d at 608.
The Refugee Act authorizes, but does not require,
ORR to reimburse states, subject to available appropriations, “for 100 per centum of the cash assistance
and medical assistance provided to any refugee”
during the first three years of the refugee’s residence
in the United States. 8 U.S.C. § 1522(e)(1); see also
Tennessee, 329 F. Supp. 3d at 607. “[B]y the early
1990s, ORR no longer reimbursed the states for the
full cost of providing cash and medical assistance to
refugees due to an insufficiency of funds appropriated
for that purpose.” Tennessee, 329 F. Supp. 3d at 607.
ORR amended the program regulations in light of the
“steady decline in Federal refugee funding for the
State share of . . . Medicaid . . . due to insufficient
appropriated funds.” 60 Fed. Reg. 33584, 33588 (June
28, 1995).
Medicaid is a “cooperative federal-state public assistance program that makes federal funds available

5a
to states electing to furnish medical services to certain
impoverished individuals.” Mowbray v. Koslowski,
914 F.2d 593, 595 (4th Cir. 1990). Medicaid assists
states in providing medical care to “pregnant women,
children, needy families, the blind, the elderly, and
the disabled . . . .” Nat’l Fed’n of Indep. Bus. v.
Sebelius (NFIB), 567 U.S. 519, 541 (2012). Participation in Medicaid is voluntary, but to receive federal
funding, states must have an approved state Medicaid
plan satisfying federal criteria that establish who is
eligible for care, the services provided, and the cost of
services. Id. at 541–42; see also 42 U.S.C. § 1396a(10);
42 C.F.R. § 430.10. Tennessee has participated in
Medicaid since 1968. Tennessee, 329 F. Supp. 3d at
605.
A state must submit its Medicaid plan, or any
proposed amendments, to the Centers for Medicare &
Medicaid Services (“CMS”) for approval. 42 C.F.R.
§ 430.12. Once the plan is approved, the state receives
reimbursement from the federal government for a percentage of the costs of providing care to eligible individuals: the “Federal Medical Assistance Percentage”
(“FMAP”). West Virginia v. U.S. Dep’t of Health &
Human Servs., 289 F.3d 281, 284 (4th Cir. 2002); see
also 42 U.S.C. § 1396d(b). If a state plan is not in
compliance with the Medicaid Act’s requirements,
“after reasonable notice and opportunity for hearing,”
HHS may withhold the state’s FMAP or limit the
FMAP to the parts of the state plan that are not
affected by noncompliance. 42 U.S.C. § 1396c. The
Medicaid Act provides for a system of administrative
and judicial review for HHS’s decisions concerning
state plans and a determination to reduce or withhold

6a
a state’s FMAP.2 See 42 U.S.C. § 1316. Medicaid
spending accounts for a substantial portion of the
average state’s budget, and the FMAP covers “50 to 83
percent of those costs.” NFIB, 567 U.S. at 581. In
recent years, Tennessee’s annual FMAP has ranged
from four to seven billion dollars, which represents 17
to 21% of the state’s total budget for all purposes.
The original Medicaid Act “was . . . silent on the
availability of Medicaid to aliens.” Lewis v. Thompson,
252 F.3d 567, 571 (2d Cir. 2001). In 1971, the Supreme
Court held in Graham v. Richardson, 403 U.S. 365,
376 (1971), that states violated the Equal Protection
Clause of the Fourteenth Amendment by denying
public assistance to noncitizens on that basis, or
because the noncitizen had not resided in the United
States for a certain number of years. Following
Graham, HHS proposed a rule to implement the
2 The General Assembly argues that it faces the potential
consequence of a loss of its FMAP. CMS may withhold payments
to a state only after providing “reasonable notice and opportunity
for a hearing,” if CMS finds that the plan is no longer in compliance or that the administration of the plan fails to substantially
comply with the Medicaid Act. 42 U.S.C. § 1396c; 42 C.F.R.
§ 430.35(a). A hearing is “generally not called until a reasonable
effort has been made to resolve the issues through conferences
and discussions.” 42 C.F.R. § 430.35(a). The Code of Federal
Regulations identifies the procedure for a hearing. See 42 C.F.R.
§§ 430.60–104. CMS’s decision is final agency action. 42 C.F.R.
§ 430.102(c). The decision must specify whether a state’s FMAP
will be withheld entirely or in part, as well as the effective date.
42 C.F.R. 430.104(a). CMS may still, however, consult with the
parties on the question of further payments. Id. (b). Federal
funds cannot be withheld earlier than the date of the decision,
and no later than “the first day of the next calendar quarter.” Id.
(c). CMS’s final determinations are subject to judicial review by
the United States Court of Appeals for the circuit in which the
state is located. 42 U.S.C. § 1316(a)(3).

7a
decision that was also consistent with recent amendments to the Social Security Act that denied Social
Security benefits to noncitizens. See 38 Fed. Reg.
16910, 16910–11 (June 27, 1973); see also Lewis, 252
F.3d at 571. The rule, codified at the time at 45 C.F.R.
§ 248.50 (1974), required states that participated in
Medicaid to provide benefits to eligible noncitizens
“lawfully admitted for permanent residence or otherwise permanently residing in the United States under
color of law[.]” 38 Fed. Reg. 30259, 30259 (Nov. 2,
1973). A noncitizen’s eligibility for Medicaid depended
on whether the noncitizen fit the criteria for coverage
in the Medicaid Act.
In 1996, Congress passed the Personal Responsibility and Work Opportunity Reconciliation Act,
Pub. L. No. 104-193, 110 Stat. 2015 (1996). The Act
restricts the availability of public benefits for noncitizens to promote self-sufficiency as part of the United
States’ national immigration policy. See 8 U.S.C.
§ 1601(5)–(6). To that end, the Act provided that “an
alien who is not a qualified alien . . . is not eligible for
any Federal public benefit[.]” 8 U.S.C. § 1611(a); see
also Bruns v. Mayhew, 750 F.3d 61, 63–64 (1st Cir.
2014). “Qualified alien” is defined at 8 U.S.C.
§ 1641(b)–(c), and includes, inter alia, “a refugee who
is admitted to the United States under section 207 of
[the Immigration and Nationality] Act.” Id. (b)(3).
Most qualified aliens are subject to additional restrictions on federal program participation. See 8 U.S.C.
§§ 1612(a)(1), 1613(a). Five years after entry into the
United States, qualified aliens may be able to participate in certain federal programs, if they are eligible,
including Medicaid. Tennessee, 329 F. Supp. 3d at 606.

8a
Congress identified some classes of qualified aliens,3
including refugees, who may participate in identified
federal programs, including Medicaid, immediately
upon admission to the United States, until seven
years after the refugee was admitted to the United
States. 8 U.S.C. § 1612(a)(2)(A)(i).
Therefore, if a state participates in Medicaid, it
“must determine a refugee applicant’s eligibility for
Medicaid as medically needy[,]” and provide assistance “to all refugees eligible under its State plans.”
45 C.F.R. § 400.94(b)–(c). If the refugee is in one of the
groups that must be covered, see 8 U.S.C. § 1396a(10),
then the refugee’s status as a noncitizen does not bar
the refugee from receiving Medicaid. See 8 U.S.C.
§ 1612(a)(2)(A)(i); 45 C.F.R. § 400.94(c). If a refugee is
not eligible for Medicaid under a state plan, then the
refugee may be eligible for the federally funded
Refugee Medical Assistance Program. 45 C.F.R.
§ 400.94(d).
FACTUAL AND PROCEDURAL HISTORY
Tennessee withdrew from participation in the
Refugee Resettlement Program in 2008. Tennessee,
329 F. Supp. 3d at 608. ORR designated the Catholic
Charities of Tennessee, and its subsidiary the Tennessee Office for Refugees, to administer refugee services
in Tennessee. Ibid. The General Assembly asserts
that, from the time of the state’s withdrawal until
2016, the federal government resettled more than
13,000 refugees in Tennessee. Refugees who satisfy
eligibility criteria can enroll in TennCare, Tennessee’s
Medicaid program. The General Assembly states in its
3 See 8 U.S.C. § 1612(a)(2)(A)(i)–(v), (B)–(D) (identifying
qualified aliens, including refugees, who may participate in
certain federal programs).

9a
complaint that in 2015, it spent over $31 million
dollars in state funds “to support the federal refugee
resettlement program through TennCare.”
In 2016, the General Assembly passed Senate
Joint Resolution 467 (“SJR 467”), directing the
Tennessee Attorney General4 to “initiate or
intervene” in a civil action on behalf of Tennessee for
alleged violations of the Tenth Amendment with
respect to the operation and implementation of the
Refugee Resettlement Program. S. Res. 467, 109th
Gen. Assembly, at 3 (Tenn. 2016). SJR 467 stated that
if the Attorney General declined to file suit, then “the
Speaker of the Senate and the Speaker of the House
of Representatives are authorized to employ outside
counsel to commence a civil action effectuating the
purposes of this resolution.” Id. at 4. The General
Assembly sent SJR 467 to the Governor of Tennessee.
He returned it without his signature. The Governor
explained in an accompanying statement that he
“trust[ed] the Attorney General to determine whether
the state has a claim in this case or in any other,” and
noted his “constitutional concerns about one branch of
government telling another what to do.” The General
Assembly took no further legislative action on SJR
467.
The Attorney General did not file suit. In a letter
to the General Assembly, he explained that he
thought that the Tenth Amendment theories “that
underpin SJR 467 are unlikely to provide a viable
basis for legal action.” Letter from Herbert H. Slatery,
4 The formal title of Tennessee’s Attorney General is
“Attorney General and Reporter.” See Tennessee ex rel. Comm’r
of Transp. v. Medicine Bird Black Bear White Eagle, 63 S.W.3d
734, 772 n.58 (Tenn. Ct. App. 2001). This opinion uses a
shortened version of the Attorney General’s title.

10a
III, Attorney General and Reporter, Tennessee, to
Tennessee Senate Chief Clerk Russell Humphrey and
Tennessee House of Representatives Chief Clerk Joe
McCord, at 3 (July 5, 2016) (hereinafter “Slatery
Letter”). The Attorney General then, “to the extent
allowed by Tennessee law delegate[d his] constitutional . . . and statutory . . . authority to commence
litigation on behalf of the State of Tennessee to staff
counsel for the General Assembly for the limited purpose of pursuing litigation to address the issues raised
in SJR 467 in the manner provided for by SJR 467.”
Id. at 4.
The General Assembly, acting for itself and on
behalf of Tennessee, along with two members of the
Tennessee General Assembly, Senator John Stevens
and Representative Terri Lynn Weaver, in their
official and individual capacities, filed suit in the
Western District of Tennessee against the United
States Department of State, HHS, ORR, and several
federal government officials in their official capacities
(collectively “State Department”).5 It alleged that,
despite Tennessee’s withdrawal from the Refugee
Resettlement Program, the federal government
“coerced” Tennessee to continue funding the program
“by threatening the state with the loss of federal
Medicaid funding.” The General Assembly claimed
that, because Tennessee must enroll eligible refugees
in TennCare, the state “is forced to expend substantial
amounts of state taxpayer money to fund the
resettlement program” despite its withdrawal. It
5 The General Assembly sued Secretary of State Michael
Pompeo, Principal Deputy Assistant Secretary of State for
Population, Refugees, and Migration Carol Thompson O’Connell,
Secretary of HHS Alex Azar II, and the Director of the ORR, E.
Scott Lloyd.

11a
asserted that 42 U.S.C. § 1396c represents impermissible coercion, because if Tennessee does not enroll
eligible refugees in TennCare, Tennessee could lose of
20% of its state budget.6 The General Assembly
sought a declaratory judgment that the State Department had violated the Spending Clause and Tenth
Amendment in its implementation of the Refugee Act.
It also requested injunctive relief prohibiting the federal government from settling refugees in Tennessee
until the United States paid for all resettlement costs,
and to compel the State Department to comply with
the Spending Clause and the Tenth Amendment by
“fund[ing] refugee resettlement from federal dollars
and without any involuntary contribution from the
State of Tennessee[.]”
The State Department moved to dismiss for lack
of subject-matter jurisdiction. It asserted that the
General Assembly and the individual legislators
lacked Article III standing, and challenged the
General Assembly’s authority to bring suit on behalf
of the state of Tennessee. Tennessee, 329 F. Supp. 3d
at 610. The State Department disputed that the case
was ripe because Tennessee had not amended its
Medicaid plan, and so did not actually face the loss of
its FMAP. Id. at 617. The State Department also contended that 42 U.S.C. § 1316 of the Medicaid Act precluded district-court review of the General Assembly’s
claims. Tennessee, 329 F. Supp. 3d at 619. Finally, it
6 Tennessee has not attempted to alter its state Medicaid
plan. The General Assembly has not passed any legislative
measures that would bar refugees from receiving TennCare. See
Tennessee v. U.S. Dep’t of State, 329 F. Supp. 3d 597, 618 (W.D.
Tenn. 2018). The complaint does not allege that CMS has
threatened to remove Tennessee’s FMAP, other than the fact
that 42 U.S.C. § 1396c exists.

12a
also moved to dismiss for failure to state a claim upon
which relief can be granted under Fed. R. Civ. P.
12(b)(6), because the General Assembly had not
shown that Tennessee’s obligation to provide Medicaid to eligible refugees violated the Tenth Amendment or that the possible loss of Tennessee’s FMAP
for failure to comply was an unconstitutionally coercive exercise of Spending Clause power. Tennessee,
329 F. Supp. 3d at 621. The district court granted the
State Department’s motions.7 Id. at 629. This appeal
followed.
ANALYSIS
The General Assembly argues that the district
court erred in its conclusion that it lacked subjectmatter jurisdiction under Fed. R. Civ. P. 12(b)(1)
when it ruled that: (1) no plaintiff had standing; (2)
the controversy was not ripe for review; and (3) 42
U.S.C. § 1316 precluded its review. It also argues that
the district court erred in granting the State Department’s motion to dismiss for failure to state a claim
upon which relief could be granted. The State Department asks us to affirm the district court.
Standard of Review
We review the district court’s decision to dismiss
for lack of subject-matter jurisdiction pursuant to Fed.
R. Civ. P. 12(b)(1) de novo. Cartwright v. Garner, 751
7 Three organizations that assist refugees, the Tennessee
Immigrant and Refugee Rights Coalition, Bridge Refugee Services Inc., and the Nashville International Center for Empowerment, moved to intervene. The district court denied that motion
as moot when it granted the State Department’s motion to dismiss. See Tennessee, 329 F. Supp. 3d at 604. These organizations,
as well as the National Health Law Program and the National
Immigration Law Center, have filed amicus briefs.

13a
F.3d 752, 760 (6th Cir. 2014). We review the district
court’s factual findings for clear error and its application of the law to the facts de novo. Ibid. We also review a district court’s dismissal of a complaint under
Fed. R. Civ. P. 12(b)(6) de novo. Benzon v. Morgan
Stanley Distribs., Inc., 420 F.3d 598, 605 (6th Cir.
2005).
Standing
The first issue we must analyze is whether the
General Assembly has standing. Article III, § 2 of the
Constitution provides that the judicial power of the
United States “extends only to ‘Cases’ and ‘Controversies.’” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016) (quoting U.S. Const. Art. III, § 2). Standing
“ensure[s] that federal courts do not exceed their
authority” and “limits the category of litigants
empowered to maintain a lawsuit in federal court to
seek redress for a legal wrong.” Ibid. The “irreducible
constitutional minimum of standing” requires the
plaintiff to show three elements. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992).
[A] plaintiff must show (1) it has suffered an
“injury in fact” that is (a) concrete and particularized and (b) actual or imminent, not conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant; and (3) it is likely, as opposed to merely
speculative, that the injury will be redressed
by a favorable decision.
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs.
(TOC), Inc., 528 U.S. 167, 180–81 (2000). When a case
“is at the pleading stage, the plaintiff must ‘clearly . . .
allege facts demonstrating’ each element.” Spokeo,
136 S. Ct. at 1547 (quoting Warth v. Seldin, 422 U.S.

14a
490, 518 (1975)). “[I]n all standing inquiries, the critical question is whether at least one petitioner has
‘alleged such a personal stake in the outcome of the
controversy as to warrant his invocation of federalcourt jurisdiction.’” Horne v. Flores, 557 U.S. 433, 445
(2009) (quoting Summers v. Earth Island Inst., 555
U.S. 488, 493 (2009)) (emphasis in original). Standing
is a jurisdictional requirement. See Coal Operators &
Assocs., Inc. v. Babbitt, 291 F.3d 912, 915 (6th Cir.
2002). If no plaintiff has standing, then the court lacks
subject-matter jurisdiction. See Lyshe v. Levy, 854 F.
3d 855, 857 (6th Cir. 2017). When a court lacks
jurisdiction, it “cannot proceed at all in any cause.”
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94
(1998) (quoting Ex parte McCardle, 74 U.S. (7 Wall.)
506, 514 (1868)). Therefore, if the General Assembly
lacks standing (acting for itself or on behalf of the
state), and the individual legislators lack standing, we
need not reach the other issues: ripeness, statutory
preclusion, and failure to state a claim upon which
relief can be granted.
Legislative Standing: The General Assembly’s
Standing to Sue on its own Behalf
Courts have grappled with the complicated
question of when a legislative body, or a group of
legislators from that body, has standing to sue. Like
all standing questions, that analysis begins with the
requirement of a concrete and particularized injury
that is actual or imminent. See Spokeo, 136 S. Ct. at
1548. An injury satisfies these criteria when the
injury affects the plaintiff in a personal and individual
way, and actually exists, even if the injury is intangible. Id. at 1548–49. A legislative body may, in some
circumstances, sue as an institutional plaintiff if it
has suffered an institutional injury. See Ariz. State

15a
Legislature v. Ariz. Indep. Redistricting Comm’n, 135
S. Ct. 2652, 2664 (2015). An institutional injury
“constitutes some injury to the power of the legislature as a whole rather than harm to an individual
legislator.” Kerr v. Hickenlooper, 824 F.3d 1207, 1214
(10th Cir. 2016). Such an injury is not confined to a
single legislator, or a small group, but affects each
member of the body equally. Ibid. Assessing whether
a legislative body has suffered an institutional injury
sufficient for Article III standing turns on the facts
and circumstances of the particular case.
Two Supreme Court cases illustrate when a
portion of a legislative body may have standing, see
Coleman v. Miller, 307 U.S. 433 (1939),8 and when the
entire legislative body has standing. See Ariz. State
Legislature v. Ariz. Indep. Redistricting Comm’n, 135
S. Ct. 2652 (2015). Coleman presented a challenging
8 Chief Justice Hughes wrote “the Opinion of the Court.”
Coleman v. Miller, 307 U.S. 433, 435 (1939). Justices Black,
Roberts, Frankfurter, and Douglas concurred in the judgment,
although they did not think that the petitioners had standing.
See id. at 456 (Black, J., concurring); id. at 460 (opinion of
Frankfurter, J.). Justices Butler and McReynolds dissented on
the merits. See id. at 470–74 (Butler, J., dissenting). In Raines v.
Byrd, 521 U.S. 811, 822 n.5 (1997), the Supreme Court concluded
that Chief Justice Hughes’s opinion on standing controlled
because Justices Butler and McReynolds must have joined the
opinion on standing. Otherwise, the Court explained, Justice
Frankfurter would have written the opinion of the court because
only two Justices joined Chief Justice Hughes’s opinion on the
merits. Ibid. The Supreme Court has treated Chief Justice
Hughes’s opinion as controlling in other cases. See Ariz. State
Legislature v. Ariz. Indep. Redistricting Comm’n, 135 S. Ct. 2652,
2665 & n.13 (2015) (discussing Coleman in relation to legislative
standing), but see id. at 2696–97 (Scalia, J., dissenting) (contending that Coleman was “a peculiar case that may well stand for
nothing”).

16a
question concerning legislative standing, as well as
the Supreme Court’s jurisdiction. In 1937, the Kansas
Senate voted for the second time on whether to ratify
the Child Labor Amendment to the U.S. Constitution.9 Coleman, 307 U.S. at 435–36. The Kansas
Senate tied 20-20, and the Lieutenant Governor, as
the presiding officer, cast a tie-breaking vote in favor
of ratification. Twenty-one Kansas state senators
sought a writ of mandamus in the Supreme Court of
Kansas challenging the Lieutenant Governor’s right
to cast the deciding vote, as well as whether the Child
Labor Amendment could still be ratified. Id. at 436.
The Supreme Court of Kansas denied the writ, and
the Supreme Court of the United States granted
certiorari. Id. at 436–37. As a threshold matter, the
Supreme Court considered whether the senators had
standing to seek review of the decision of the Supreme
Court of Kansas.10 Id. at 437.
The Supreme Court observed that “the plaintiffs
include twenty senators, whose votes against ratification have been overridden and virtually held for
naught although if they are right in their contentions
their votes would have been sufficient to defeat ratification.” Id. at 438. The senators, the Court explained,
had a “plain, direct and adequate interest in maintaining the effectiveness of their votes.” Ibid. In
support of this conclusion, the Court examined past
cases in which it had recognized that federal and state
9 The Kansas Senate had initially adopted a resolution
rejecting the amendment in 1925. Coleman, 307 U.S. at 435.
10 The Supreme Court of Kansas had concluded that the
senators had standing to sue because the Kansas Senate had
passed a resolution directing Kansas’s Attorney General to
appear on behalf of the state, and Kansas joined the case as a
party defendant. Coleman, 307 U.S. at 437 & n.2.

17a
officials and administrative commissions had a legitimate interest in resisting attempts to prevent enforcement of statutes that confer official duties on the
officials and commissions. Id. at 441–42. The state
official did not need to have suffered a personal injury
because, if he had a duty to enforce the statute, then
he had an interest in a federal case that considered
whether the statute was constitutional. See id. at
443–45. The Court also pointed out that it had found
standing when citizens challenged whether certain
exercises of state legislative power were consistent
with federal constitutional requirements. Id. at 445–
46. The Court concluded:
In the light of this course of decisions, we find
no departure from principle in recognizing in
the instant case that at least the twenty senators whose votes, if their contention were sustained, would have been sufficient to defeat
the resolution ratifying the proposed constitutional amendment, have an interest in the
controversy which, treated by the state court
as a basis for entertaining and deciding the
federal questions, is sufficient to give the
Court jurisdiction to review that decision.
Id. at 446.
Coleman mingled its federal-question jurisdiction
and Article III standing analyses. Even so, subsequent cases examining Coleman have identified some
at least one core principle concerning legislative-body
standing. Courts have concluded that, on the question
of whether members of a legislative body have standing, Coleman at most held that “legislators whose
votes would have been sufficient to defeat (or enact) a
specific legislative Act have standing to sue if that
legislative action goes into effect (or does not go into

18a
effect), on the ground that their votes have been completely nullified.” Raines v. Byrd, 521 U.S. 811, 823
(1997) (footnote omitted). See also Crawford v. U.S.
Dep’t of Treasury, 868 F.3d 438, 453–54 (6th Cir. 2017)
(“An apparent exception to the general rule against
legislative standing arises when the legislators are
suing on a vote-nullification theory and allege that if
their votes had been given effect, those votes would
have been sufficient to defeat or enact a specific legislative action.”); Baird v. Norton, 266 F.3d 408, 412
(6th Cir. 2001) (holding that a member of the Michigan House and a Michigan state senator did not have
standing to challenge gaming compacts approved by a
concurrent-resolution procedure because neither
plaintiff could show that his or her individual vote
could have defeated the compacts under another
procedure).
The Supreme Court considered whether a legislative body could raise a nullification claim in Arizona
State Legislature. Arizona voters adopted Proposition
106, which amended the Arizona Constitution by
removing the Arizona Legislature’s redistricting
authority and vesting it in an independent commission. 135 S. Ct. at 2658. The Legislature sued, alleging
that Proposition 106 and the commission’s redistricting activities deprived the Legislature of its constitutional authority over redistricting, in violation of the
Elections Clause of the U.S. Constitution. Id. at 2658–
59 (citing U.S. Const. art. I § 4, cl.1). The Supreme
Court considered whether the Legislature had alleged
an injury that was sufficiently concrete to meet Article
III’s standing requirements. Id. at 2663.
The Court rejected the argument that, absent an
attempt at redistricting, the Legislature lacked standing. Id. at 2663–64. If the Legislature had to pass a

19a
redistricting plan and seek to implement it, it would
have to violate the Arizona Constitution (by passing
an act that superseded a proposition), and show that
the Secretary of State, who could only constitutionally
implement the commission’s certified maps, would be
likely to violate the Arizona Constitution by implementing the Legislature’s map. Such a showing, the
Court concluded, was unnecessary to demonstrate an
injury concrete enough for standing. Id. at 2664.
In assessing whether the Legislature had standing, the Court compared the Legislature’s claims with
the claims in Coleman and Raines. In Raines, the
Supreme Court considered whether six members of
Congress had standing to challenge the constitutionality of the Line Item Veto Act. 521 U.S. at 814. The
Court observed that the members of Congress did not
assert a personal injury. Instead, they claimed that
the Line Item Veto Act caused “a type of institutional
injury (the diminution of legislative power), which
necessarily damages all Members of Congress and
both Houses of Congress equally.” Id. at 821. The
nature of that injury did not permit the members to
claim a “personal stake” in the suit and the alleged
injury was not “sufficiently concrete” to establish
Article III standing. Id. at 830.
The Supreme Court concluded that these facts distinguished the Arizona Legislature’s claimed injury
from the one in Raines. Ariz. State Legislature, 135 S.
Ct. at 2664. By contrast, the Arizona Legislature was
“an institutional plaintiff asserting an institutional
injury and it commenced this action after authorizing
votes in both of its chambers . . . .” Ibid. The Arizona
Legislature’s injury, the Court reasoned, was more
similar to the “nullification” injury in Coleman. Id. at

20a
2665. Proposition 106, along with the Arizona Constitution’s bar on allowing the Legislature to undermine
the purpose of an initiative, “would ‘completely
nullif[y]’ any vote by the Legislature now or ‘in the
future,’ purporting to adopt a redistricting plan.” Ibid.
(quoting Raines, 521 U.S. at 823–24). Accordingly, the
Court concluded, there was a sufficiently concrete
injury to the Legislature’s interest in redistricting (a
power the Legislature claimed derived from the U.S.
Constitution) that the Legislature had Article III
standing. Id. at 2665–66.
The General Assembly argues that its circumstances are “virtually identical” to those in Arizona
State Legislature because a majority of the General
Assembly passed SJR 467. It claims that the definitive
criteria for legislative standing “boils down to pure
numbers.” Under the General Assembly’s standing
theory, “[l]egislators have standing to sue on behalf of
the legislative body where 51% of the members of the
legislative body vote to authorize the lawsuit.” It
argues that it has sufficiently alleged an injury,
“deprivation and nullification” of its legislative powers, because its complaint alleged “that the federal
refugee resettlement program and the mandates to
fund programs and healthcare for refugees through
Medicaid completely nullify the General Assembly’s
votes to appropriate state funds as is its right and
obligation under the Tennessee Constitution.” The
General Assembly emphasizes that “the underlying
cause of action itself—the Tenth Amendment to the
United States Constitution—makes it clear that
Defendants are infringing on the State’s sovereignty
and nullifying its powers.”
None of the cases the General Assembly relies on
demonstrate that “pure numbers” or a majority of

21a
votes on a resolution to file suit confers standing on
an institutional body. A vote tally is relevant in
analyzing whether the legislators have a Coleman
nullification claim, or if an individual legislator had
been designated as the body’s representative. See
Kerr, 824 F.3d at 1215 (“In determining whether a
party may rely on an institutional injury to demonstrate standing, the [Supreme] Court has considered
whether the plaintiffs represent their legislative body
as an institution.”). Raines “attach[ed] some importance” to the fact that the Senate and House had not
authorized any of the six plaintiffs to represent their
Houses of Congress, and in fact, Congress “actively
oppose[d]” the suit.” 521 U.S. at 829; see also Ariz.
State Legislature, 135 S. Ct. at 2664. Raines also noted
that the six plaintiffs did not form a sufficient bloc to
bar the enactment of the Line Item Veto Act, unlike
in Coleman. 521 U.S. at 822–24. Similarly, Arizona
State Legislature, 135 S. Ct. at 2664, observed that the
Arizona Legislature had brought suit as an institution
after authorizing votes.
Raines and Arizona State Legislature are not just
about numbers. What Raines demonstrates is that
individual legislator plaintiffs cannot bring suit for an
alleged institutional injury. 521 U.S. at 821. But an
institutional body can bring suit for such an alleged
injury. Ariz. State Legislature, 135 S. Ct. at 2664. See
also Kerr, 824 F.3d at 1214 (“Viewing [Raines,
Coleman, and Ariz. State Legislature] together,
individual legislators may not support standing by
alleging only an institutional injury.”). SJR 467 lends
support to the General Assembly’s claim that it brings
suit as an institutional body, as well as the individual
legislators’ claims to standing as the General
Assembly’s authorized representatives. See United
States v. AT&T, 551 F.2d 384, 391 (D.C. Cir. 1976)

22a
(noting House of Representatives resolution authorizing intervention of congressman on behalf of a
congressional subcommittee and the House of Representatives). But SJR 467, by itself, is not sufficient to
confer Article III standing. See Ariz. State Legislature,
135 S. Ct. at 2664; Kerr, 824 F.3d at 1216. An institutional plaintiff must still satisfy Article III’s standing
requirements. To have standing, the General Assembly must have alleged that it has suffered “an actual
or imminent injury that is traceable to the defendant
and redressable by the court.” Crawford, 868 F.3d at
452.
To determine whether the General Assembly’s
alleged injury satisfies that criteria, it is helpful to
delve further into what constitutes a concrete
“institutional injury” for standing, beyond a claim
that an injury that is directed towards the legislative
body and affects all members equally. See Ariz. State
Legislature, 135 S. Ct. at 2664; Raines, 521 U.S. at
821; Kerr, 824 F.3d at 1215. In both Coleman and
Arizona State Legislature, the injury “reside[d] in the
disruption of the legislative process . . . .” U.S. House
of Representatives v. Burwell, 130 F. Supp. 3d 53, 67
(D.D.C. 2015). The plaintiffs in both Coleman and
Arizona State Legislature had alleged that an action
at the state legislative level had interfered with their
federal constitutional prerogatives. Coleman is not
precisely an “institutional injury” case—rather, it is a
claim by some legislators that state procedural irregularities undermined their duty under the U.S.
Constitution and nullified their votes. 307 U.S. at 438.
Similarly, in Arizona State Legislature, the Legislature argued that Proposition 106, was inconsistent
with the Elections Clause of the U.S. Constitution,
which the Legislature claimed vested it with the
responsibility for redistricting. 135 S. Ct. at 2663.

23a
Other cases finding that a legislative body alleged
a concrete institutional injury, and so had standing,
similarly centered on a disruption to that body’s
specific powers. In AT&T, the United States Court of
Appeals for the District of Columbia Circuit concluded
that the House of Representatives had standing to
intervene in a suit that the Department of Justice had
filed to block AT&T from complying with a House
subcommittee subpoena. 551 F.2d at 391. The court
held, after a brief analysis, that “the House as a whole
has standing to assert its investigatory power, and
can designate a member to act on its behalf.” Ibid. In
Burwell, the district court held that the House of
Representatives had alleged a concrete, particularized injury that satisfied standing through its claim
that the Executive Branch had violated the Constitution by drawing funds from the Treasury without a
valid appropriation. 130 F. Supp. 3d at 74. The district
court emphasized that circumventing the appropriations process deprived Congress “of its constitutional
role” and caused an injury “in a more particular and
concrete way.” Id. at 75. These cases demonstrate that
interference with a legislative body’s specific powers,
such as its ability to subpoena witnesses, or a constitutionally assigned power, may create an injury that
is concrete enough for Article III standing. See
Virginia House of Delegates v. Bethune-Hill, 139 S. Ct.
1945, 1955 n.6 (2019) (observing that the House has
an “institutional interest in the manner in which it
goes about its business”) (emphasis in original). But
that injury must be concrete and particularized, see
Spokeo, 136 S. Ct. at 1548, and in Coleman, Arizona
State Legislature, AT&T, and Burwell, the interference satisfied that criteria because it affected the
legislative body’s specific powers and either curtailed

24a
or threatened the exercise of those powers, impacting
the entire legislature.
Merely alleging an institutional injury is not
enough. See Bethune-Hill, 139 S. Ct. at 1955 (party
invoking federal-court jurisdiction “bears the burden
of doing more than ‘simply alleg[ing] a nonobvious
harm’” (quoting Wittman v. Personhuballah, 136 S.
Ct. 1732, 1737 (2016))). In Raines, the Supreme Court
considered more than just numbers—it examined the
alleged injury. See 521 U.S. at 821–25. The members
of Congress had argued that Coleman applied
because, under the Line Item Veto Act, their votes on
future appropriations bills would be less effective. Id.
at 825. Before the Act, the members argued, if they
passed an appropriations bill, the bill would become
law, or it would not. But after the Line Item Veto Act,
the members argued, the bill could become law—and
the President could cancel portions of the bill. Ibid.
Raines cast doubt on whether this alleged injury itself
was concrete enough to confer standing. See id. at 829
(“[T]he institutional injury they allege is wholly
abstract and widely dispersed . . . .”). The Court
concluded that this did not represent “vote nullification” as in Coleman, but rather a complaint about an
“abstract dilution of legislative power.” Id. at 826.
The District of Columbia Circuit considered a
problem similar to the one before this court, in Alaska
Legislative Council v. Babbitt, 181 F.3d 1333 (D.C.
Cir. 1999). The Alaska Legislative Council, composed
of certain members of the Alaska Legislature, and
other members of the Legislature sued the Secretary
of the Interior, alleging that federal management of
federal public lands in Alaska under the Land Conservation Act infringed on Alaska’s authority in violation

25a
of the Tenth Amendment. Id. at 1335. The Council alleged that because the Alaska Constitution conferred
an affirmative duty on the state’s legislators to legislate and manage state natural resources, the federal
statute interfered with those duties and “nullified
their legislative prerogatives regarding fish and
wildlife management.” Id. at 1337. The court rejected
the individual legislators’ claims to standing because
an assertion that federal law blocked the Alaska
Legislature from controlling hunting and fishing on
federal lands alleged a loss of political power that was
attributable to the Legislature as a whole. Id. at 1338.
But, the court observed, there was not the “slightest
suggestion” that the Lands Conservation Act had
overruled or nullified any “specific act or regulation of
the Alaska Legislature . . . .” Ibid. The court acknowledged that the Council could sue in the name of the
Legislature under Alaska law, but held that the Council’s claimed injury failed. The Council’s complaints
were identical to those of the individual legislators.
The alleged injury, that federal law interfered with
the state’s authority to manage its fish and wildlife,
was an injury the state purportedly suffered. Ibid. If
the Act “diminishe[d] the State’s authority, it injures
state sovereignty, not legislative sovereignty.” Id. at
1338–39 (emphasis added).
In our case, one of the General Assembly’s claimed
injuries is an alleged injury to the state—and not the
General Assembly. It asserts that the State Department is “infringing on the State’s sovereignty and
nullifying its powers.” This claim, that the federal
government is commandeering state funds to support
the Refugee Resettlement Program in violation of the
Tenth Amendment through a statute that permits
eligible refugees to enroll in Medicaid, is, like the
injury described in Alaska Legislative Council, an

26a
alleged injury to the state, not the legislature. See id.
at 1338–39. This is not an injury that confers standing
on the General Assembly. See id. at 1339 (“[T]he
Legislature suffers no separate, identifiable, judicially
cognizable injury that entitles it to sue on its own
behalf.”).
The General Assembly argues that its votes to
appropriate state funds have been “completely
nullif[ied]” through the obligation to provide Medicaid
to eligible refugees. The Tennessee Constitution vests
the General Assembly with Tennessee’s legislative
authority and the power to appropriate funds. Tenn.
Const. art. 2, §§ 3, 24. But the General Assembly has
not alleged that it cannot pass appropriations bills,11
11 At oral argument, the General Assembly fleshed out its
standing argument by asserting that the injury arises from the
General Assembly’s inability to balance the state budget
because, as refugees are settled in Tennessee, the federal government can commandeer state funds by placing more refugees in
Tennessee and, as some of those refugees might be eligible for
Medicaid, Tennessee would have to spend money. This, the
General Assembly asserts, forces Tennessee to disturb its budget
and violate its own constitution. The General Assembly raised
this concern in the context of its complaint that Tennessee “is not
consulted or informed of the number of refugees that will be
resettled within its borders . . . .” The argument about consultation (or the General Assembly’s clarification about balanced
budget problems) was not raised substantially in its briefs. The
General Assembly’s complaint does not allege that refugee placements have caused, or threaten to cause, its budget to become
unbalanced. That something could happen does not satisfy the
requirement of imminence. See Crawford v. U.S. Dep’t of
Treasury, 868 F.3d 438, 454–55 (6th Cir. 2017). Further, 8 U.S.C.
§ 1522(a)(2) provides guidelines to ensure that the General
Assembly’s hypothetical, that the federal government might
place 10,000 refugees in one state in the last two weeks of the
fiscal year could not happen. Given that from 2008 to 2016, the
[Footnote continued on next page]

27a
and so its insistence that its circumstances are identical to those in Arizona State Legislature is misplaced.
The Arizona Legislature could not take any redistricting action without violating the Arizona
Constitution—Proposition
106
removed
the
redistricting power—and so made the injury concrete.
Ariz. State Legislature, 135 S. Ct. at 2663. The
General Assembly, however, can pass appropriations
bills, which can allocate or not allocate funds as it
wishes. But, because Tennessee voluntarily participates in Medicaid, and is required, as a condition of
receiving federal funding, to cover individuals who
satisfy the eligibility criteria (including refugees), the
General Assembly has appropriated funds for the
state share of Medicaid. The General Assembly’s
objection arises from 8 U.S.C. § 1612, which permits
refugees to enroll in Medicaid if they satisfy the other
criteria for eligibility.
This claimed injury appears to derive, if anywhere, from the alleged injury to Tennessee’s
sovereignty. See Alaska Legislative Council, 181 F.3d
at 1338–39. The impact on the General Assembly’s
obligation to appropriate funding is more akin to the
alleged injury in Raines, of an abstract “loss of political power.” See 521 U.S. at 821. The General Assembly
has not identified an injury that it has suffered, such
as disruption of the legislative process, a usurpation
of its authority, or nullification of anything it has
done, unlike in Coleman, Arizona State Legislature, or
Burwell. The district court did not err when it
federal government has settled (according to the General
Assembly) a total of 13,000 refugees in the state, we do not
conclude that this hypothetical set of circumstances represents a
threatened injury that is “real, immediate, and direct.” Davis v.
FEC, 554 U.S. 724, 734 (2008).

28a
concluded that the General Assembly lacked Article
III standing. Its alleged injury simply does not satisfy
the first element of standing. See Spokeo, 136 S. Ct. at
1548; Raines, 521 U.S. at 826. We do not address
whether a suit brought by a different party resting
upon an alleged injury to Tennessee’s state
sovereignty would satisfy Article III standing.
The Individual Legislators’ Standing
Having concluded that the General Assembly
lacks standing to sue on its own behalf, we turn to
whether the individual legislators have standing.
Senator Stevens and Representative Weaver filed suit
in both their individual and official capacities. Before
the district court, they argued that they had officialcapacity standing, rather than alleging that they had
suffered a personal injury that would provide them
with individual-capacity standing. See Tennessee, 329
F. Supp. 3d at 612. Before this court, their primary
argument is that, because the General Assembly has
standing, that body may designate Senator Stevens
and Representative Weaver to act on its behalf.
An individual legislator, or group of legislators, do
not have Article III standing based on an allegation of
an institutional injury, or a complaint about a dilution
of legislative power because “[a]n individual legislator
cannot ‘tenably claim a personal stake’ in a suit based
on such an institutional injury.” Kerr, 824 F.3d at
1214 (quoting Ariz. State Legislature, 135 S. Ct. at
2664); see also Crawford, 868 F.3d at 460; Baird, 266
F.3d at 412–13; Alaska Legislative Council, 818 F.3d
at 1337–38. An individual legislator may, however,
have standing as a representative of the legislative
body. See Kerr, 824 F.3d at 1215–16 (explaining that
an individual legislator may represent the body as an
institution upon authorization); see also Karcher v.

29a
May, 484 U.S. 72, 81–82 (1987) (legislators intervened
as representatives of the legislature); AT&T, 551 F.2d
at 391 (House of Representatives designated member
as official representative). But the legislative body
must have standing to sue. See Karcher, 484 U.S. at
82. Because the General Assembly lacks standing, we
affirm the district court’s conclusion that Senator
Stevens and Representative Weaver lack standing.
The General Assembly’s Standing to Sue on
Behalf of the State of Tennessee
Even though we affirm the district court’s conclusion that the General Assembly lacks standing to sue
on its own behalf, we must consider whether the
General Assembly has standing to sue on behalf of
Tennessee. The General Assembly argues that the
Tennessee Constitution does not expressly provide
that only the Attorney General has the exclusive
power to litigate in the name of the state. It insists
that, because the alleged injury to Tennessee’s
sovereignty primarily implicates legislative powers, it
is the appropriate party to file suit, and Tennessee’s
separation-of-powers doctrine is flexible enough to
permit the General Assembly to do so. The General
Assembly also argues that SJR 467 and the Attorney
General’s subsequent delegation in the Slatery Letter
permit it to bring suit on behalf of Tennessee.
A state may designate an agent to represent its
interests in court. This is most commonly the state’s
Attorney General. See Hollingsworth v. Perry, 570
U.S. 693, 710 (2013). State law may, however, “provide for other officials to speak for the State in federal
court . . . .” Ibid. For example, in Karcher, 484 U.S. at
82, two members of the New Jersey Legislature could
represent New Jersey’s interests in their official
capacity under New Jersey law. In assessing whether

30a
the General Assembly has the authority to represent
Tennessee in federal court, we must examine Tennessee law. See Bethune-Hill, 139 S. Ct. at 1951–52
(examining Virginia law to determine if the Virginia
House of Delegates could litigate on behalf of the
state); Hollingsworth, 570 U.S. at 712–13 (examining
California law); Arizonans for Official English v.
Arizona, 520 U.S. 43, 65 (1997) (examining Arizona
law to determine if initiative sponsors can defend
constitutionality of initiatives).
The Tennessee Attorney General is “the chief
executive officer of the Legal Department of state
government.” Tennessee ex rel. Comm’r of Transp. v.
Medicine Bird Black Bear White Eagle, 63 S.W.3d 734,
772 (Tenn. Ct. App. 2001); see also Tenn. Code Ann.
§ 4-3-111(1). The Attorney General is a constitutional
officer appointed by the justices of the Tennessee
Supreme Court.12 Tenn. Const. art. VI, § 5. This role
carries “extensive statutory power and the broad
common-law powers of the office except where these
powers have been limited by statute.” Medicine Bird
Black Bear White Eagle, 63 S.W.3d at 772; see also
Tennessee v. Chastain, 871 S.W.2d 661, 664 (Tenn.
1994); Tennessee v. Heath, 806 S.W.2d 535, 537 (Tenn.
Ct. App. 1990). Tennessee courts have given a broad
construction to the Attorney General’s statutory
authority. See Heath, 806 S.W.2d at 537. They also are
reluctant to authorize interference with the Attorney
General’s obligations. See Medicine Bird Black Bear
White Eagle, 63 S.W.3d at 775 (concluding that courts
do not have the power to appoint lawyers to represent
12 The Tennessee Attorney General “became a constitutional
officer with the adoption of the 1853 amendments to the
Constitution of 1835.” Medicine Bird Black Bear White Eagle, 63
S.W.3d at 772.

31a
officers and agencies of the state government “[i]n
light of the constitutional stature and statutory duties
of the Attorney General”).
Tennessee law provides that the Attorney General
has the duty to try or direct “all civil litigated matters
and administrative proceedings in which the state or
any officer, department, agency, board, commission or
instrumentality of the state may be interested[.]”
Tenn. Code Ann. § 8-6-109(b)(1); see also Medicine
Bird Black Bear White Eagle, 63 S.W.3d at 772. The
Attorney General has the exclusive authority “to
attend to all business of the state” in both criminal
and civil matters in Tennessee’s appellate courts.
Tenn. Code Ann. § 8-6-109(b)(2); Tennessee v. Potter,
61 S.W.3d 348, 351 (Tenn. Crim. App. 2001). The
Attorney General’s exclusive authority also extends to
cases in federal court.
The attorney general and reporter shall
attend in person, or by assistant, and
prosecute or defend, as the case may be, any
and all suits, civil or criminal in the
[S]upreme [C]ourt of the United States, in the
United States court of appeals for the judicial
circuit of the United States comprising the
state of Tennessee, or in any of the district
courts of the United States held in the state of
Tennessee, in which suit or suits the state may
be a party, or in which the state has or may
have interests of a pecuniary nature.
Tenn. Code Ann. § 8-6-110 (emphases added). In
interpreting statutory language, Tennessee courts
look to the “natural and ordinary meaning” of statutory language in the context of the entire statute and
interprets the statute to effectuate the legislative
intent. Potter, 61 S.W.3d at 350. Tennessee courts

32a
have concluded that similar language in other statutes created a duty upon state officials. See Dobbins
v. Crowell, 577 S.W.2d 190, 192–93 (Tenn. 1979)
(concluding that statutory language vested duty and
authority to enforce solely in the Attorney General);
Potter, 61 S.W.3d at 350–51 (citing Tenn. Code Ann.
§ 8-7-103, which states that district attorneys general
“shall prosecute” and concluding that this “place[s] a
duty upon the district attorney general”). It appears
that Tennessee has selected the Attorney General as
the exclusive representative of its interests in federal
court. See Tenn. Code Ann. § 8-6-110.
The General Assembly contends that, should we
hold that it lacks the authority to sue in the name of
the state, we would effectively give the Attorney
General a veto over the General Assembly’s powers to
litigate. The difficulty with this argument is that the
General Assembly has not identified any Tennessee
authority granting it the power to initiate a case on
behalf of the state. Tenn. Code Ann. § 8-6-109, which
sets forth the duties of the Attorney General, does
permit the Attorney General to “exercise discretion to
defend the constitutionality and validity of all private
acts and general laws of local application enacted by
the general assembly and of administrative rules or
regulations of this state.” Id. (b)(10). If the Attorney
General chooses not to defend a law, then he must
certify that decision to the Speaker of each House of
the General Assembly. Ibid. Upon such certification,
the “speakers, acting jointly, may employ legal counsel to defend the constitutionality of such law.” Id. (c).
But, as the district court observed, this statute is not
applicable because the Attorney General chose not to
file suit against the federal government, rather than
choosing not to defend the constitutionality of some
law that the General Assembly enacted. Tennessee,

33a
329 F. Supp. 3d at 616. The General Assembly’s argument, that affirming the district court would nullify
Tenn. Code Ann. § 8-6-109(c) and similar statutes in
other jurisdictions incorrectly assumes that a suit to
defend the constitutionality of state law is the same as
the authority to initiate a suit to challenge federal law.
We note that Tennessee has not passed any substantive law that would affect the refugee Medicaid
controversy.
Finally, we observe that, even when litigation
implicates the General Assembly’s constitutionally
granted power to raise and spend funds, the General
Assembly still does not have the authority to bring
suit in the name of the state. See Tenn. Code Ann. § 86-109(e). The Attorney General is required to notify
the General Assembly when the state is a party in
state or federal court and the litigation may raise
issues of potentially insufficient funding or might
result in increased state expenditures. Id. (b)(11)–
(12), (d). In such a case, the Speakers of the General
Assembly may employ legal counsel to offer advice,
“provided[] that the attorney general and reporter
shall remain the state’s sole representative in federal
and state court proceedings.” Id. (e). Tennessee has
designated an agent to represent its interests in
federal court—and that agent is not the General
Assembly. See Tenn. Code Ann. § 8-6-110; BethuneHill, 139 S. Ct. at 1952 (“[T]he House’s argument that
it has authority to represent the State’s interests is
foreclosed by the State’s contrary decision.”).
The General Assembly also relies on SJR 467 and
the Slatery Letter to support its argument that has
authority to bring suit on behalf of the State. In the
Slatery Letter, the Attorney General declined to file
suit, and then stated that, “to the extent allowed by

34a
Tennessee law,” he delegated his constitutional and
statutory authority “to commence litigation on behalf
of the State of Tennessee to staff counsel for the
General Assembly for the limited purpose of pursuing
litigation to address the issues raised in SJR 467 in
the manner provided for by SJR 467.” Slatery Letter,
at 4. He cited Tenn. Code Ann. § 8-6-302 to support
this delegation. Ibid.
The Attorney General may delegate his statutory
and constitutional authority only if authorized by
statute or the Tennessee Constitution. See Tenn.
Const. art. II, § 2 (“No person or persons belonging to
one of these departments shall exercise any of the
powers properly belonging to either of the others,
except in the cases herein directed or permitted.”);
Medicine Bird Black Bear White Eagle, 63 S.W.3d at
772. There does not appear to be any constitutional
provision permitting this delegation.13 Tenn. Code
Ann. § 8-6-302 provides that the Attorney General,
with “the concurrence of the head of the executive
agency involved, may permit, by express written

13 The General Assembly contends that, as the injury to the
state it alleges primarily implicates legislative powers, it is the
proper party to file suit in the name of the state. The sole support
it offers for this proposition is Tenn. Const. art. II, § 3, which
vests the General Assembly with legislative authority. The legislative power encompasses the authority to make and repeal laws.
See Tennessee v. Brackett, 869 S.W.2d 936, 939 (Tenn. Crim. App.
1993). Executive power concerns itself with the administration
and enforcement of the law, and the judicial power centers on the
authority to interpret and apply the law. Ibid. The Tennessee
Constitution forbids one branch of government from taking on
the duties of another branch without constitutional authorization. Tenn. Const. art. II, § 2. We do not find the General
Assembly’s argument on this point persuasive.

35a
authorization,” staff attorneys of “various departments, agencies, boards, commissions or instrumentalities of the state to appear and represent the state”
in a case “under the direction and control of the
attorney general and reporter.” This statute does not
appear to support the Attorney General’s purported
delegation for two reasons. First, the preceding code
section, Tenn. Code Ann. § 8-6-301(c), expressly states
that the Attorney General “shall not” represent the
Office of Legal Services for the General Assembly14
“before the [G]eneral [A]ssembly or any committee
thereof, nor shall direct or supervise such office or
attorneys employed by such office.” Therefore, Tenn.
Code Ann. § 8-6-302 cannot apply to the General
Assembly’s staff attorneys because they cannot
operate under the Attorney General’s direction. See
Tennessee v. Allman, 68 S.W.2d 478, 479 (Tenn. 1934)
(“It is, of course, well settled that statutes forming a
system or scheme should be construed so as to make
that scheme consistent in all its parts.”).
Second, the statute only applies to executive
agencies. See Tenn. Code Ann. § 8-6-302 (requiring
“the concurrence of the head of the executive agency
involved” before the staff attorney may “appear and
represent the state”). The preceding sections, Tenn.
Code Ann. § 8-6-301(a)–(b), emphasize the Attorney
General’s authority over executive agencies, and
forbid these agencies from initiating civil proceedings,
except through the Attorney General. Id. (b). The
14 The Office of Legal Services for the General Assembly has
a number of statutory duties, but none of them include filing suit
on behalf of the state. See Tenn. Code Ann. § 3-12-101 (listing
duties of the Office of Legal Services). The General Assembly has
not argued that Tennessee law authorizes the Office of Legal
Services to undertake this action on behalf of the state.

36a
General Assembly argues that it would be “inappropriate, as a matter of federalism, for a federal court to
assume that the State’s Attorney General made such
a delegation if he could not lawfully do so.” But the
statute the Attorney General relied upon to support
his delegation is, by its own terms, inapplicable to the
present circumstances, and the General Assembly has
not identified any other statutory or constitutional
provision that would permit the Attorney General to
do so—instead the General Assembly pins its hopes on
SJR 467.
The State Department argues that, as “a resolution is not law and cannot amend a statute,” SJR 467
did not create a new statutory authorization permitting the General Assembly to initiate an action on
behalf of Tennessee in federal court, or amend Tenn.
Code Ann. § 8-6-110, which currently identifies the
Attorney General as the state agent with the exclusive
authority to do so. In Vertrees v. State Bd. of Elections,
214 S.W. 737, 742 (Tenn. 1919), the Tennessee
Supreme Court considered, among other issues
related to women’s partial suffrage in Tennessee,
whether elections officers had the power to provide a
separate ballot box for women’s votes. The court
concluded that, as a statute authorized the elections
officers to provide a ballot box, it implied the power to
provide other boxes, if it was necessary for a fair
election. The court also noted a resolution passed by
the General Assembly that stated that elections
officers could provide separate ballot boxes. Ibid. The
court explained that such a resolution “was not
effective to confer any additional power on our election
officers, or to amend any existing law.” Ibid. Instead,
it served as “an expression of the opinion of the Legislature and as an expression of legislative advice.” Ibid.
The General Assembly, which has the burden of

37a
establishing standing, see Spokeo, 136 S. Ct. at 1547,
has not offered any Tennessee precedent
demonstrating that a resolution is effective to alter
existing statutory schemes.15 While the General
15 There is some dispute over whether SJR 467 was even validly
enacted. The General Assembly maintains that, as SJR 467 “was
passed by majorities in each house of the General Assembly and
returned by Governor Haslam without a veto,” it became “effective pursuant to Section 18 of Article III of the Tennessee Constitution.” The State Department disagrees. It points out that the
Governor did not sign SJR 467, and included a statement
describing why he chose not to sign the resolution, including that
he had “constitutional concerns about one branch of government
telling another what to do.”
The Tennessee Constitution provides that bills and joint
resolutions that pass the General Assembly must be presented
to the Governor for his signature. Tenn. Const. art. III, § 18. If
the Governor refuses to sign a bill or joint resolution and wishes
to veto it, he must return the document to the General Assembly
with his written objections within ten calendar days, not counting Sunday, or it becomes law without his signature. Ibid. If he
returns the resolution with objections, “before it shall take effect
[the resolution] shall be repassed by a majority of all the
members elected to both houses in the manner and according to
the rules prescribed in case of a bill.” Ibid. The General Assembly
sent SJR 467 to the Governor on May 9, 2016. He returned it
without a signature and with objections on May 20, 2016. See
Tenn. Legislative Record, 109th Gen. Assembly, at 16–17 (Nov.
2016). Excluding the Sunday, this return appears to be timely.
The General Assembly never repassed SJR 467. In Johnson City
v. Tennessee Eastern Electric Co., 182 S.W. 587, 590 (Tenn. 1916),
the Tennessee Supreme Court concluded that it is “[b]eyond
question a return made by the Governor of a bill with his objections thereto in writing to the committee on enrolled bills of the
house of origin, or to any member thereof, would be a good return
of the bill and objections within the meaning of the Constitution.”
We do not need to address this issue because the Attorney
General has the sole authority to litigate in federal court on
[Footnote continued on next page]

38a
Assembly may have the authority to sue in its own
name in federal court to vindicate an injury to its own
rights, provided it can satisfy the essential jurisdictional requirements, we conclude that SJR 467 did not
amend the Tennessee law that provides that the
Attorney General has the exclusive responsibility to
litigate on behalf of the state in federal court. See
Tenn. Code Ann. § 8-6-110.
Because the General Assembly has not established that it has standing, there is no subject-matter
jurisdiction. See Spokeo, 136 S. Ct. at 1547; Steel Co.,
523 U.S. at 94. “Jurisdiction is power to declare the
law, and when it ceases to exist, the only function
remaining to the court is that of announcing the fact
and dismissing the cause.” Ex parte McCardle, 74 U.S.
(7 Wall.) 506, 514 (1868). Accordingly, we do not reach
the questions of ripeness, statutory preclusion, or
whether the General Assembly stated a claim upon
which relief could be granted. See Coal Operators &
Assocs., Inc., 291 F.3d at 915.
The judgment of the district court dismissing the
case for lack of standing is AFFIRMED.

behalf of the state, Tenn. Code Ann. § 8-6-110, and there does not
appear to be any precedent to support his delegation to the
General Assembly. Further, Vertrees v. State Board of Elections,
214 S.W. 737, 742 (Tenn. 1919), undercuts the General Assembly’s argument that SJR 467 has altered Tennessee statutory or
constitutional law in a way that would permit it to sue.

39a
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF
TENNESSEE EASTERN DIVISION
STATE OF TENNESSEE,
et al.
Plaintiffs,
v.
U.S. DEPARTMENT OF
STATE, et al.,
Defendants,
v.
TENNESSEE IMMIGRANT
AND REFUGEE RIGHTS
COALITION, et al.,
Intervenor-Defendants.

) No. 1:17-cv) 01040-STA) egb
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER GRANTING DEFENDANTS’ MOTION
TO DISMISS AND DENYING MOTION
TO INTERVENE AS MOOT
Plaintiffs Tennessee General Assembly, in its own
right and on behalf of the State of Tennessee, State
Senator John Stevens, individually and in his official
capacity, and State Representative Terri Lynn
Weaver, individually and in her official capacity, have
brought this action contending that federal laws
requiring the State of Tennessee to provide Medicaid
benefits to refugees, under threat of losing its federal
Medicaid funding, coerce the State into subsidizing
the federal Refugee Resettlement Program. Plaintiffs

40a
have sued the United States Department of State; Rex
Tillerson, in his official capacity as Secretary of State;
the Bureau of Population, Refugees, and Migration
(“PRM”); Simon Henshaw, in his official capacity as
Acting Assistant Secretary of State for the PRM;
United States Department of Health and Human Services (“HHS’); Thomas E. Price, in his official capacity
as Secretary of HHS; the Office of Refugee Resettlement (“ORR”); and Ken Tota, in his official capacity as
Acting Director of ORR (collectively the “Federal
Government”). Plaintiffs seek a declaration that the
challenged laws exceed Congress’s authority under
the United States Constitution’s Spending Clause and
violate the Tenth Amendment to the Constitution.
They also seek injunctive relief prohibiting further
refugee resettlements in Tennessee until the Federal
Government absorbs all costs of those resettlements.
Defendants have filed a motion to dismiss for lack
of subject-matter jurisdiction or, in the alternative, for
failure to state a claim upon which relief can be
granted. (ECF No. 24.) Plaintiffs have filed a response
to the motion (ECF No. 38), Defendants have filed a
reply to the response (ECF No. 39), and Plaintiffs have
filed a sur-reply.1 (ECF No. 40.) For the reasons set
forth below, the motion to dismiss is GRANTED.
Tennessee Immigrant and Refugee Rights Coalition, on behalf of itself and its members, Bridge
Refugee Services Inc., and Nashville International
Center for Empowerment, has filed a motion to intervene on behalf of Defendants. (ECF No. 25). Because
the Court grants Defendants’ motion to dismiss, the
motion to intervene is DENIED as moot.
1 Plaintiffs also filed a notice of supplemental authority on
November 22, 2017. (ECF No. 44.)

41a
Background
Congress created the Medicaid program through
enactment of Title XIX of the Social Security Act, Pub.
No. L. 89-97, 79 Stat. 286, codified at 42 U.S.C. § 1396
et seq. See generally Pharm. Research & Mfrs. of Am.
v. Walsh, 538 U.S. 644, 650–51 (2003) (discussing the
Medicaid program and its purpose).2 “Medicaid is a
cooperative federal-state program through which the
Federal Government provides financial assistance to
States so they may furnish medical care to needy individuals.” Wilder v. Va. Hosp. Ass’n, 496 U.S. 498, 502
(1990) (citation omitted). See also In re Estate of Trigg,
368 S.W.3d 483, 499 (Tenn. 2012) (“The program is
jointly funded by the federal government and the
states, and each state operates its own program in
accordance with federal requirements.”).
Tennessee’s participation in the Medicaid program began when the General Assembly enacted the
Medical Assistance Act of 1968. Roberts v. Sanders,
2002 WL 256740 at *5 (Tenn. Ct. App. Feb. 22, 2002)
(citing Act of Apr. 3, 1968, ch. 551, 1968 Tenn. Pub.
Acts 496 (codified as amended at Tenn. Code Ann.
§§ 71-5-101–119 (1995 & Supp. 2001))).3 Participation
in the program is voluntary, but participating states
must comply with the requirements imposed by the
2 As background for their motion, Defendants have described the
Medicaid program, the administrative procedures associated
with it, and various refugee programs relevant to this case.
Plaintiffs have not disputed that this description is an accurate
representation of the programs and procedures. Therefore, the
Court has summarized the information presented by
Defendants.
3 In Tennessee, the Medicaid program is known as TennCare and
is jointly funded by Tennessee and the Federal Government.
(Compl. ¶ 34.)

42a
statute and with regulations promulgated by the
Secretary of HHS. Wilder, 496 U.S. at 502. See also
Roberts, 2002 WL 256740 at *5 (While each state
operates its own Medicaid program, each state must
conform to federal requirements in order to receive
federal matching funds.”)
One of those requirements is that each state must
have an approved plan that provides coverage for
specified groups. 42 U.S.C. § 1396a(a)(10)(A)(i), (b); 42
C.F.R. § 430.10. That is, participating states must
provide full Medicaid services under the approved
state plan to groups of individuals who meet the eligibility criteria. See Lewis v. Thompson, 252 F.3d 567,
570 (2d Cir. 2001) (“States enjoy some flexibility in
determining the breadth of a Medicaid plan, but are
nonetheless cabined by a set of eligibility rules.”)
Each state with an approved plan receives payments from the Federal Government according to a
formula set out by statute. 42 U.S.C. § 1396d. If there
is a determination that the state’s plan or its administration of the plan no longer complies with Medicaid
requirements, the Secretary will either withhold
further payments to the state or may “limit payments
to categories under or parts of the State plan not
affected” by the non-compliance. 42 U.S.C. § 1396c.
A finding of non-compliance results in the following administrative process. First an attempt is made
by the HHS Centers for Medicare & Medicaid Services
(“CMS”) to resolve the matter informally. 42 C.F.R.
§§ 430.32, 430.35. If these efforts are unsuccessful,
CMS initiates a formal compliance action by letter to
the state which sets forth the finding of non-compliance, provides notice that some or all federal funding
will be withheld absent compliance, and explains that

43a
the state has an opportunity for an evidentiary hearing before any payments will be withheld. 42 C.F.R.
§§ 430.35(a) & (d), 430.70, 430.83–430.88. If an
adverse ruling is made, the state may seek review by
the Administrator. Id. §§ 430.80(a)(11), 430.102(b).
The Administrator’s decision constitutes the final
decision of the agency and is the earliest point at
which federal funds can be withheld. Id. §§ 430.102(c),
430.104(c). A state may seek review of the final agency
decision in the United States Court of Appeals for the
circuit in which the state is located. 42 U.S.C.
§ 1316(a)(3); 42 C.F.R. § 430.38(a) - (b). A similar
administrative process allows a state to seek
appellate-court review of CMS’s disapproval of a
proposed plan amendment. 42 U.S.C. § 1316(a).
The original Medicaid statute was “silent on the
availability of Medicaid to aliens.” Lewis, 252 F.3d at
571. However, in 1973 the Secretary issued a rule
requiring coverage of all lawful permanent residents
and other aliens “permanently residing in the United
States under color of law.” 45 C.F.R. § 248.50 (1973).
The purpose of the 1973 rule was to implement the
Supreme Court’s decision in Graham v. Richardson,
403 U.S. 365, 376, 380 (1971), see 37 Fed. Reg. 11977
(June 16, 1972), in which the Court held that state
laws denying welfare benefits to resident aliens violated the Equal Protection Clause of the Fourteenth
Amendment and impermissibly encroached upon
exclusive federal power over the admission of aliens
and the conditions of their residence.
In 1996 Congress passed the Personal Responsibility and Work Opportunity Reconciliation Act, Pub.
L. No. 104-193, 110 Stat. 2105 (1996), known as the
Welfare Reform Act of 1996. In this Act, Congress
announced a “national policy with respect to welfare

44a
and immigration.” Korab v. Fink, 797 F.3d 572, 580
(9th Cir. 2014) (quoting 8 U.S.C. § 1601). The Act
“establish[ed] a uniform federal structure for providing welfare benefits to distinct classes of aliens.” Id. at
581. Reaffirming national policy that “aliens within
the Nation’s border [should] not depend on public
resources to meet their needs,” 8 U.S.C. § 1601(2)(A),
the Act “impos[ed] sweeping restrictions on aliens’
access to federally sponsored government aid” such as
Medicaid. Lewis, 252 F.3d at 577–78; see also Bruns v.
Mayhew, 750 F.3d 61, 63 (1st Cir. 2014) (citation
omitted) (“For years, federal Medicaid extended medical assistance to eligible individuals without regard to
citizenship status or durational residency. By act of
Congress, however, the alien eligibility requirements
for publicly-funded benefits, including Medicaid,
changed dramatically in 1996.”).
The Act separated aliens in the United States into
two classes – qualified aliens who may be eligible for
certain federally funded benefits and all other aliens
who generally are not. 8 U.S.C. §§ 1611 - 1613, 1641.
The definition of “qualified alien[s]” includes lawfully
admitted refugees. 8 U.S.C. § 1641(b)(3). Five years
following their entry into the United States, qualified
aliens may be considered eligible for certain designated federal programs, including Medicaid; however,
refugees are covered under Medicaid without regard
to the five-year residency rule. Id. §§ 1612(b)(1),
(2)(A)(i)(I)-(V), 1612(b)(3)(A)-(C), 1613(a), (b)(1). Medicaid coverage must be provided to eligible refugees for
seven years following their admission to the United
States, after which coverage of refugees becomes
optional at the state’s discretion. Id. § 1612(b)(1),
(2)(A)(i). If the refugee resettlement agency determines that a refugee is not eligible for Medicaid under

45a
the state plan, the agency looks to the Refugee Medical Assistance (“RMA”) program for benefits for the
refugee. 45 C.F.R. § 400.94(d).
Pursuant to its authority to regulate the “admission, naturalization, and residence of aliens in the
United States or the several states,” Toll v. Moreno,
458 U.S. 1, 11 (1982) (citation omitted), Congress
enacted the Immigration and Nationality Act (“INA”),
8 U.S.C. § 1101, et seq., to establish a “comprehensive
and complete code covering all aspects of admission of
aliens to this country.” Elkins v. Moreno, 435 U.S. 647,
664 (1978). Congress passed the Refugee Act of 1980,
Pub. L. No. 96-212, 94 Stat. 102 (1980), an amendment to the INA, which sets forth “a permanent and
systematic procedure for the admission [of refugees]
to this country” and “provide[s] comprehensive and
uniform provisions for [their] effective resettlement.”
Id. § 101(b). The Act allows for the annual admission
of refugees in “such number as the President
determines . . . is justified by humanitarian concerns
or is otherwise in the national interest.” 8 U.S.C.
§ 1157(a)(2). One year following their admission,
refugees must apply for permanent-resident status,
and they may apply for citizenship within five years.
Id. §§ 1159(a), 1427(a).
The Refugee Act also “provides for federal support
of the refugee resettlement process,” S. Rep. No. 96256 at 2, authorizing the Federal Government to issue
grants to and contract with state and local governments and private non-profit agencies to manage the
initial admission and placement of refugees to the
United States and provide subsequent resettlement
assistance. 8 U.S.C. § 1522. Pursuant to this authority, the PRM maintains and oversees the United
States Refugee Admissions Program, a public-private

46a
partnership involving federal agencies, domestic nonprofit organizations, and international organizations
to screen, transport, and provide initial resettlement
services for refugees. Id. § 1522(b)(1), (7).
The PRM works with the non-profit organizations
with which it has entered into cooperative agreements
to determine where refugees will be resettled in the
United States. Although the PRM consults with state
and local governments “concerning the sponsorship
process and the intended distribution of refugees
among the States and localities before their placement,” 8 U.S.C. § 1522(a)(2)(A), the Refugee Act does
not provide for the involvement of state or local governments in determining where individual refugees
are resettled once admitted to the United States. See
H. R. Rep. No. 132, 99th Cong., 1st Sess., 19 (1985)
(observing that the Act is “not intended to give States
and localities any veto power over refugee placement
decisions”).
Under the Refugee Resettlement Program administered by the HHS Office of Refugee Resettlement
(“ORR”), the Federal Government makes grants to
and contracts with states and local and private nonprofit agencies to assist refugees after their initial
resettlement in achieving economic self-sufficiency.
See 45 C.F.R. § 400.1(a), (b). States may receive grants
for refugee assistance programs. 8 U.S.C. § 1522(e).
ORR is authorized to reimburse a state for its costs of
assisting refugees during their first three years of
residence in the United States. Id. § 1522(e)(1). However, by the early 1990s, ORR no longer reimbursed
the states for the full cost of providing cash and
medical assistance to refugees due to an insufficiency
of funds appropriated for that purpose. See 60 Fed.
Reg. 33584, 33588 (June 28, 1995).

47a
A state wishing to participate in the Refugee
Resettlement Program must submit a plan, approved
by ORR, describing how it will coordinate cash and
medical assistance and other services to promote
refugee resettlement and economic self-sufficiency. 8
U.S.C. § 1522(a)(6); 45 C.F.R. §§ 400.4(a), 400.5(b). A
state may withdraw from the program with proper
notice to ORR. 45 C.F.R § 400.301(a). However, the
Refugee Act does not condition the resettlement of
refugees in a state on that state’s participation in the
program. If a state chooses to withdraw from the
program, under the 1984 “Wilson/Fish Amendment”
ORR may select one or more other grantees, usually
private non-profit organizations, to administer federal
funding for cash and medical assistance and social
services provided to eligible refugee populations in
that state. 8 U.S.C. § 1522(e)(7); 45 C.F.R.
§ 400.301(c); see also 69 Fed. Reg. 17692 (Apr. 5, 2004)
(announcing availability of funding for applicants “to
continue the provision of refugee program services
and assistance … in a State when the State elects to
discontinue participation” in the Refugee Resettlement Program). ORR currently funds thirteen
Wilson/Fish programs operating in twelve states,
including Tennessee.
By letter dated October 29, 2007, Tennessee withdrew from participation in the Refugee Resettlement
Program effective June 30, 2008. (Compl. ¶ 32, ECF
No. 1.) Subsequently, Catholic Charities of Tennessee,
through its affiliate the Tennessee Office of Refugees,
was designated to administer the Wilson/Fish program of refugee services and assistance in Tennessee.
(Id. ¶¶ 38-39.)

48a
Background to the Complaint
In 2016 the Tennessee General Assembly adopted
Senate Joint Resolution 467 (“SJR 467”) (Gilligan
Decl. Exh. A, ECF No. 24-3) “regarding the commencement of legal action seeking relief … from the federal
government’s mandated appropriation of state
revenue … with respect to refugee resettlement in
Tennessee.” SJR 467 at 1.4 Reciting that requiring
Tennessee to provide Medicaid benefits to eligible
refugees or “risk losing all Medicaid funding” subjects
the State to coercion in violation of the Tenth Amendment, the resolution calls on the Attorney General of
Tennessee to initiate or intervene in litigation on the
State’s behalf to seek relief regarding “any actions
taken by the federal government … prohibited by the
Tenth Amendment.” Id. at 1-3. Alternatively, the
resolution authorizes the General Assembly “to
employ outside counsel to commence a civil action”
against the Federal Government if the Attorney
General fails to do so. Id. at 4.
On July 5, 2016, the Tennessee Attorney General
sent a letter to the General Assembly (“AG Letter”)
declining to bring suit against the Federal Government as requested by SJR 467. (Gilligan Decl. Exh. A,
ECF No. 24-3.) The Attorney General explained that
“extensive review of the legal issues raised by SJR
467” had led his office “to conclude that the 10th
Amendment theories that underpin SJR 467 are
unlikely to provide a viable basis for legal action,”
inasmuch as “[i]mmigration and refugee resettlement
4 There is some dispute as to whether this Resolution actually
took effect. (Reply, p. 11, ECF No. 39.) However, for the purpose
of deciding this motion, the Court will assume that it did, in fact,
take effect.

49a
are matters largely reserved for federal jurisdiction.”
Id. at 1, 3. However, due to the General Assembly’s
“desire to resolve [its] concerns through the adjudicative process,” for purposes of this matter the Attorney
General delegated his authority to bring litigation on
the State’s behalf to staff counsel for the General
Assembly “to the extent allowed by Tennessee law.”
Id. at 4. This lawsuit then ensued.
Allegations of the Complaint
Plaintiffs allege that, by enacting and implementing provisions of the Refugee Act and the Welfare
Reform Act, the Federal Government has unconstitutionally “coerc[ed] the state into subsidizing,” and
“commandeer[ed] state funds to finance” the Refugee
Resettlement Program in Tennessee, thus “impermissibly intrud[ing] on Tennessee’s state sovereignty.”
(Compl. ¶¶ 3, 4, 7.) Specifically, Plaintiffs contend
that, following Tennessee’s withdrawal from the
Refugee Resettlement Program in 2008, (id. ¶ 32), the
Federal Government, rather than discontinuing
refugee resettlements in Tennessee, “bypassed” the
State and appointed Catholic Charities of Tennessee
to continue the resettlement program in Tennessee.
(Id. ¶¶ 38-39.) Plaintiffs allege that, under the mandate to provide Medicaid benefits to otherwise eligible
refugees located in the State, 8 U.S.C. § 1612, Tennessee must spend in excess of $30 million each year to
fund the Refugee Resettlement Program, (id. ¶ 29),
despite its withdrawal from the program. (Id. ¶¶ 36,
37, 41.)
Plaintiffs further allege that “[i]f Tennessee
refuses to expend state funds to provide these refugee
services through Medicaid, the state is subject to a
loss of nearly $7 billion” in federal Medicaid funds
which amounts to “20% of its total state budget.” (Id.

50a
¶¶ 35, 42, 54.) According to Plaintiffs, by “threatening” Tennessee with this loss, the Federal Government has “coerced the state to continue funding the
refugee resettlement program” and “thereby commandeered state funds to support a federal initiative.” (Id.
¶ 33.) Additionally, the Federal Government’s actions
allegedly “deprive …Tennessee of its sovereignty,” (id.
¶¶ 46, 56), in excess of Congress’s power under the
Spending Clause and in violation of the Tenth
Amendment. (Id. ¶¶ 3, 48, 50, 51,59.)
According to Plaintiffs, the “refugee resettlement
program also commandeers other state funds and instrumentalities through health and welfare programs
and public schooling, including the program known as
‘English Language Learners,’ as mandated by 20
U.S.C. § 1703.” (Id. ¶ 47.)
Plaintiffs seek declaratory relief and an injunction
prohibiting resettlement of additional refugees in
Tennessee unless and until the Federal Government
pays for and absorbs the costs of the resettlement program “without any involuntary contribution” from the
State. (Id., Prayer for Relief, ¶¶ 1-3.)
Motion to Dismiss for Lack of
Subject Matter Jurisdiction
A complaint may be dismissed pursuant to Rule
12(b)(1) of the Federal Rules of Civil Procedure for
lack of jurisdiction. Under Rule 12(b)(1), a motion to
dismiss “may either attack the claim of jurisdiction on
its face or it can attack the factual basis of jurisdiction.” Golden v. Gorno Bros., Inc., 410 F.3d 879, 881
(6th Cir. 2005). “A facial attack is a challenge to the
sufficiency of the pleading itself,” and “the court must
take the material allegations of the petition as true
and construed in the light most favorable to the

51a
nonmoving party.” United States v. Ritchie, 15 F.3d
592, 598 (6th Cir. 1994) (citation omitted). “A factual
attack, on the other hand, is . . . a challenge to the
factual existence of subject matter jurisdiction.” Id.
With a factual attack, “no presumptive truthfulness
applies to the factual allegations, and the court is free
to weigh the evidence and satisfy itself as to the
existence of its power to hear the case.” Id. (citation
omitted). The plaintiff bears the burden of proving
that jurisdiction exists. Moir v. Greater Cleveland
Reg’l Transit Auth., 895 F.2d 266, 269 (6th Cir. 1990)
(explaining that, when “subject matter jurisdiction is
challenged pursuant to Rule 12(b)(1), the plaintiff has
the burden of proving jurisdiction in order to survive
the motion”).
“Proper jurisdiction is a requirement in determining the validity of a claim, and as such, Rule 12(b)(1)
motions must be considered prior to any other challenges.” Lemke v. H&R Block Mortg. Corp., 2012 WL
715894 at *1 (E.D. Mich. Mar. 6, 2012) (citing Bell v.
Hood, 327 U.S. 678 (1946)). See also Moir, 895 F.2d at
269 (quoting Bell v. Hood for the proposition that,
when a defendant moves to dismiss under both Rule
12(b)(1) and (b)(6), the court should consider the
12(b)(1) motion first because “the 12(b)(6) challenge
becomes moot if this court lacks subject matter
jurisdiction.”).
Because Defendants contend that this Court lacks
subject matter jurisdiction over the complaint, the
Court will first consider the request for relief under
Rule 12(b)(1). Defendants specifically contend that
this Court lacks subject-matter jurisdiction over
Plaintiffs’ claims for the following reasons: (1) Plaintiffs lack standing to bring their claim; (2) the claim is
not ripe for review; and (3) review of Plaintiffs’ claim

52a
in this Court is precluded by the Medicaid Act. The
Court finds Defendants’ contentions to be meritorious.
Standing
Defendants argue that neither the General
Assembly nor the individual legislators have alleged
that the State’s duty to cover refugees under Medicaid
inflicts concrete and particularized injuries on them
as required to establish standing under Article III.
Also according to Defendants, although the General
Assembly asserts that it may sue on the State’s behalf
under a delegation of authority from the Attorney
General, Tennessee law does not permit the Attorney
General to delegate such authority to the General
Assembly.
Article III of the United States Constitution
endows federal courts with “[t]he judicial Power of the
United States;” however, this power extends only to
“cases” and “controversies.” “No principle is more
fundamental to the judiciary’s proper role in our
system of government than the constitutional
limitation of federal-court jurisdiction to actual cases
or controversies.” Raines v. Byrd, 521 U.S. 811, 818
(1997) (citation omitted). The standing requirement
limits federal court jurisdiction to actual controversies
so that the judicial process is not transformed into “a
vehicle for the vindication of the value interests of
concerned bystanders.” Valley Forge Christian Coll. v.
Ams. United for Separation of Church & State, Inc.,
454 U.S. 464, 473 (1982) (quoting United States v.
SCRAP, 412 U.S. 669, 687 (1973)).
Because Tenth Amendment challenges “often
involve controversial policy questions that courts are
ill-equipped to handle and that put the courts at
particular risk of encroaching on the proper domain of

53a
the political branches,” before proceeding to the
merits of a claim, it is “incumbent upon a federal court
to ensure that a State asserting such a claim has
alleged a ‘particularized, concrete, and otherwise
judicially cognizable’ injury.” West Virginia v. United
States Dep’t of Health & Human Servs., 145 F. Supp.
3d 94, 110 (D.D.C. 2015), aff’d sub nom. West Virginia
ex rel. Morrisey v. U.S. Dep’t of Health & Human
Servs., 827 F.3d 81 (D.C. Cir. 2016).
As explained in Spokeo, Inc. v. Robins, 136 S. Ct.
1540 (2016), as revised (May 24, 2016),
Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy. The doctrine developed in our case
law to ensure that federal courts do not exceed
their authority as it has been traditionally
understood. The doctrine limits the category
of litigants empowered to maintain a lawsuit
in federal court to seek redress for a legal
wrong. In this way, “[t]he law of Article III
standing ... serves to prevent the judicial
process from being used to usurp the powers
of the political branches,” and confines the
federal courts to a properly judicial role.
Our cases have established that the “irreducible constitutional minimum” of standing consists of three elements. The plaintiff must
have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be
redressed by a favorable judicial decision. The
plaintiff, as the party invoking federal jurisdiction, bears the burden of establishing these
elements. [When], as here, a case is at the

54a
pleading stage, the plaintiff must “clearly ...
allege facts demonstrating” each element.
Spokeo, 136 S. Ct. at 1547; see also United States v.
Hall, 877 F.3d 676, 681 (6th Cir. 2017) (reiterating the
requirements of Article III standing). A plaintiff must
plead the elements of standing with specificity. See
Coyne v. Am. Tobacco Co., 183 F.3d 488, 494 (6th Cir.
1999) (stating that a “plaintiff bears the burden of
demonstrating standing and must plead its components with specificity”). “[E]ach element must be
supported in the same way as any other matter on
which the plaintiff bears the burden of proof, i.e., with
the manner and degree of evidence required at the
successive stages of the litigation.” Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561 (1992).
Injury in fact is the “[f]irst and foremost” of the
three elements. Steel Co. v. Citizens for Better
Environment, 523 U.S. 83, 103 (1998). To establish
injury in fact, a plaintiff must show that he suffered
“an invasion of a legally protected interest” that is
“concrete and particularized” and “actual or imminent, not conjectural or hypothetical.” Lujan, 504 U.S.
at 560. For an injury to be “particularized,” it “must
affect the plaintiff in a personal and individual way.”
Id. at 560 n.1. For an injury to be “concrete,” it “must
actually exist.” Spokeo, 136 S. Ct. at 1548. For an injury to be “actual or imminent,” the “threatened injury
must be certainly impending to constitute injury in
fact” - “[a]llegations of possible future injury” are not
sufficient. Clapper v. Amnesty Int’l USA, 568 U.S. 398,
409–10 (2013) (citations omitted).5 The injury-in-fact
5 “Although imminence is concededly a somewhat elastic concept, it cannot be stretched beyond its purpose, which is to ensure
[Footnote continued on next page]

55a
requirement helps to ensure that the plaintiff has a
“personal stake in the outcome of the controversy.”
Susan B. Anthony List v. Driehaus, 134 S. Ct. 2334,
2341 (2014) (quoting Warth v. Seldin, 422 U.S. 490,
498 (1975)). Only one party to a lawsuit need have
standing to satisfy Article III and survive a motion to
dismiss. See Horne v. Flores, 557 U.S. 433, 445–47
(2009) (“[T]he critical question is whether at least one
petitioner has alleged such a personal stake in the
outcome of the controversy as to warrant his
invocation of federal-court jurisdiction.”)
State Legislators
State Senator John Stevens and State Representative Terri Lynn Weaver have brought this action
individually and in their official capacities as
Tennessee elected officials. According to the complaint, “[t]he actions of the federal government that
give rise to this case impede and interfere with
Senator Stevens’s ability to fully discharge his duties
as a member of the Tennessee General Assembly and
as a leader on the Senate Standing Committee on
Finance, Ways and Means,” and “[t]he actions of the
federal government that give rise to this case impede
and interfere with Representative Weaver’s ability to
fully discharge her duties as a member of the
Tennessee General Assembly and as a leader and
member of the committees on which she serves.”
(Compl. ¶¶ 8-9.) Defendants maintain that Plaintiffs
Stevens and Weaver lack standing both individually
and in their official capacities, and the Court agrees.
that the alleged injury is not too speculative for Article III purposes - that the injury is certainly impending.” Lujan, 504 U.S.
at 565 n.2 (quoting Whitmore v. Arkansas, 495 U.S. 149, 158
(1990)).

56a
As noted by Defendants, Plaintiffs’ response does
not address Defendants’ argument that the complaint
contains no allegations of personal injury to the legislators that would support their standing as individuals. Instead, Plaintiffs argue that the legislators
have met the requirements of Article III because the
General Assembly has standing and has designated
them to act on its behalf. Accordingly, the Court finds
that Plaintiffs have abandoned their individual capacity theory of standing, see Montgomery v. Kraft Foods
Glob., Inc., 2012 WL 6084167 at *6 (W.D. Mich. Dec.
6, 2012), aff’d, 822 F.3d 304 (6th Cir. 2016) (“The
Court also notes that Plaintiff failed to specifically respond to Defendants’ arguments regarding subsection
(h) in either of Plaintiff’s briefs in opposition to the
motions to dismiss, thereby effectively abandoning
the claim.”), and will address only their official
capacity theory of standing.6
The Supreme Court examined legislator standing
in Raines v. Byrd. In Raines, six members of Congress
sued to invalidate the Line Item Veto Act, 2 U.S.C.
§§ 691–692, on separation-of-powers grounds, arguing
that the authority conferred by the Act on the
President to cancel certain spending measures within
appropriations bills rendered their votes on such
legislation less effective. 521 U.S. at 814–16. In
determining that the individual members of Congress
did not have standing to bring suit, the Court
explained that the harm described by the legislators
was “a type of institutional injury (the diminution of
6 In their sur-reply, Plaintiffs reference the declarations of
Defendants Stevens (ECF No. 38-1) and Weaver (ECF No. 38-2)
as supporting a finding that they have standing to sue as individuals. However, Plaintiffs have merely cited the declarations and
have not explained how the declarations support their argument.

57a
legislative power), which necessarily damages all
Members of Congress and both Houses of Congress
equally.” Id. at 821. Having asserted an injury that
was “wholly abstract and widely dispersed,” the legislators “[did] not have a sufficient ‘personal stake’ in
the dispute and [did] not allege[] a sufficiently concrete injury” and, therefore, failed to meet the requirements of Article III. Id. at 829–30. That is, “[n]one of
the plaintiffs … could tenably claim a ‘personal stake’
in the suit.” Arizona State Legislature v. Arizona
Indep. Redistricting Comm’n, 135 S. Ct. 2652, 2664
(2015) (discussing Raines).
Less than two months after the decision in Raines,
President William J. Clinton “exercised his authority
to cancel one provision in the Balanced Budget Act of
1997, Pub.L. 105–33, 111 Stat. 251, 515, and two
provisions in the Taxpayer Relief Act of 1997, Pub.L.
105-34, 111 Stat. 788, 895–896, 990–993.” Clinton v.
City of New York, 524 U.S. 417, 421 (1998). The constitutionality of the Line Item Veto Act was again challenged, but this time the Court held that the plaintiffs
had standing to challenge of the Act. “Our disposition
of the first challenge [in Raines] to the constitutionality of this Act demonstrates our recognition of the
importance of respecting the constitutional limits on
our jurisdiction, even when Congress has manifested
an interest in obtaining our views as promptly as
possible. But these cases differ from Raines, not only
because the President’s exercise of his cancellation
authority has removed any concern about the ripeness
of the dispute, but more importantly because the
parties have alleged a ‘personal stake’ in having an
actual injury redressed rather than an ‘institutional
injury’ that is ‘abstract and widely dispersed.’” Id. at
430 (citation omitted). The Court then found that “the
cancellation procedures set forth in the Act violate[d]

58a
the Presentment Clause, Art. I, § 7, cl. 2, of the
Constitution.” Id. at 421.
Here, the alleged injury to Plaintiffs Stevens and
Weaver in their official capacities is the type of nonpersonal harm that the Supreme Court rejected in
Raines. Plaintiffs Stevens and Weave assert that
Defendants’ actions “impede and interfere” with their
“ability to fully discharge [their] duties” as members
of the General Assembly and of their respective legislative committees. (Compl. ¶¶ 8–9.) Such an injury is
“wholly abstract,” Raines, 521 U.S. at 825–26, 829, as
it is based on the idea that compelled expenditures of
state funds for the Refugee Resettlement Program
will interfere with their ability to appropriate state
funds for other purposes and, therefore, dilute their
legislative power. In arguing that Defendants’ actions
interfere with the work of the House Transportation
Subcommittee (Compl. ¶ 9), which has no readily apparent nexus to the Refugee Resettlement Program,
Plaintiffs implicitly acknowledge that “[t]he ‘institutional injury’ at issue . . . scarcely zeroe[s] in on any
individual Member,” Arizona State Legislature, 135 S.
Ct. 2652, 2664 (2015), and, instead, is shared by all
members of the General Assembly. Accordingly, because they lack a particularized injury in the dispute,
Plaintiffs Stevens and Weaver have no standing in
their official capacities to file suit in this matter.
Nor can Plaintiffs Stevens and Weaver file suit on
behalf of the General Assembly because, as discussed
below, the General Assembly itself lacks standing to
file suit in this matter. State law confers upon the Attorney General the authority to initiate suit on behalf
of the State or General Assembly. Senate Joint Resolution 467 does not give Plaintiffs the authority to file
suit because a resolution cannot amend a statute or

59a
constitutional provision. See, e.g., Vertrees v. State Bd.
of Elections, 214 S.W. 737, 742 (Tenn. 1919);7
Tennessee General Assembly, How A Bill Becomes A
Law, http://www.capitol.tn.gov/about/billtolaw.html
(“Resolutions differ from bills in that they do not
become law but simply serve to express the views of
the majority of one or both houses of the Legislature.”)
(last visited March 5, 2018). “The resolution, however,
can be looked to as an expression of the opinion of the
Legislature and as an expression of legislative
advice.” Vertrees, 214 S.W. at 742.
Neither can Plaintiffs rely on the letter from
“Tennessee Attorney General Herbert H. Slatery, III,
specifically delegating his constitutional and statutory authority to the General Assembly to commence
litigation on behalf of the State of Tennessee and the
General Assembly for the purpose of pursuing litigation challenging the constitutionality of the federal
government’s refugee resettlement program and other
issues raised by SJR 467” (Compl. ¶ 6) as a basis for
standing. In his letter, the Attorney General declined
“to initiate a cause of action based upon untested,
novel theories of coerced spending or commandeering
of the budget process” and determined that “the 10th
Amendment theories that underpin SJR 467 are
unlikely to provide a viable basis for legal action.”
(Slatery Letter p. 3, ECF No. 38-7.) Although the
7 In Vertrees, the Tennessee Supreme Court had under consideration the validity of Chapter 139, Pub. Acts of 1919, which
conferred upon women the right to vote for electors for President
and Vice President of the United States. The Act was sustained
upon the ground that Tennessee’s Constitution made no provision as to the manner of their election and hence the election of
such officers could be “made in such manner as the Legislature
shall direct.” 214 S.W. at 739.

60a
letter purported to delegate the Attorney General’s
“authority to commence litigation on behalf of the
State of Tennessee to staff counsel for the General
Assembly for the limited purpose of pursuing litigation to address the issues raised in SJR 467,” it did so
only “to the extent allowed by Tennessee law.” (Id. at
p. 4.) Accordingly, the Court finds that Plaintiffs
Stevens and Weaver have no standing to sue in either
their individual or their official capacities.
General Assembly On Behalf of Itself
Defendants rely on Arizona State Legislature v.
Arizona Independent Redistricting Commission in
support of their argument that the General Assembly
does not have standing to bring this lawsuit in its own
right. Arizona State Legislature concerned a ballot
initiative that purported to amend the state constitution to transfer congressional redistricting authority
from the state legislature to a new independent commission. The state legislature brought suit against the
commission, seeking to overturn the amendment as
being in conflict with the Elections Clause, United
States Constitution Article I. 135 S. Ct. at 2662. In
considering the question of standing, the Supreme
Court held that the legislature had adequately alleged
an institutional injury because the ballot initiative
“together with the Arizona Constitution’s ban on
efforts to undermine the purposes of an initiative . . .
would ‘completely nullif[y]’ any vote by the Legislature, now or ‘in the future,’ purporting to adopt a
redistricting plan.” 135 S. Ct. at 2665 (citing Raines,
521 U.S. at 823–24).
Plaintiffs contend that, under Arizona State
Legislature, the General Assembly has standing
because a majority of its members voted to authorize
the lawsuit. However, Arizona State Legislature does

61a
not provide that authorization alone is sufficient to
confer standing on the legislature. Instead, the
Court’s decision was based on an alleged complete loss
of legislative power, as opposed to a mere dilution of
that power. Id. at 2663–65. Here, the General Assembly alleges a deprivation “of [its] ability to spend state
funds in the manner the people of Tennessee may . . .
deem most appropriate.” (Compl. ¶ 7.) Because this
claim of injury acknowledges that the General
Assembly still retains its appropriations authority, it
is more akin to the “abstract dilution of institutional
legislative power” described in Raines, 521 U.S. at
826, rather than the total loss of redistricting authority at issue in Arizona State Legislature.
Plaintiffs additionally argue that the injury at
issue in this case is the General Assembly’s right to
appropriate state funds and that legislatures have
standing to protect their “quasi-sovereign” interests
when there is “coercive pressure” from the Federal
Government involving the potential loss of federal
funding. Although Plaintiffs are correct that the
General Assembly has standing to protect itself from
injury to its legislative authority under Arizona State
Legislature, a legislature must establish that it has
suffered a concrete and particularized injury, i.e., a
complete loss of legislative power, in order to meet the
requirements of Article III. Plaintiff General Assembly on behalf of itself has not satisfied that standard
in that it has not alleged a complete loss of power to
enact appropriations legislation. Instead, the allegation is that the preferred legislation, once enacted,
might conflict with federal law.

62a
General Assembly on Behalf of the State of
Tennessee
The General Assembly also asserts standing to
bring this lawsuit on behalf of the State under SJR
467 and the purported delegation of authority from
the Tennessee Attorney General in his letter declining
to file suit. Plaintiffs contend that, while the joint
resolution was not necessary for it to bring this suit in
the State’s name, the enactment established a process
for proceeding to litigation. Plaintiffs reason that,
because the General Assembly is not before this Court
invoking the name of the State to exercise executive
power but, instead, is suing to remedy infringement
upon its legislative powers, they may file suit on
behalf of the State.
Defendants acknowledge that parties who lack
standing in their own right may represent the State if
state law authorizes them to “to speak for the State in
federal court,” Hollingsworth v. Perry, 570 U.S. 693,
710 (2013) (citing Karcher v. May, 484 U.S. 72, 81–82
(1987)), but argue that is not the case here. Instead,
they contend that the Constitution and laws of
Tennessee confer on the Attorney General – and not
the Legislature – the authority to litigate on behalf of
Tennessee.
Tenn. Code Ann. § 8-6-110 provides that “[t]he
attorney general and reporter shall attend in person,
or by assistant, and prosecute or defend . . . any and
all suits . . . in which suit or suits the state may be a
party, or in which the state has or may have interests
of a pecuniary nature.” Additionally, the General
Assembly has listed as exclusive duties of the
Attorney General “[t]he trial and direction of all civil
litigated matters and administrative proceedings in
which the state or any officer, department, agency,

63a
board, commission or instrumentality of the state may
be interested.” Id. § 8-6-109(b)(1); see State v. Potter,
61 S.W.3d 348, 351 (Tenn. Crim. App. 2001) (stating
that the duties listed in § 8-6-109 are “the sole or
exclusive authority” of the Attorney General).
The Attorney General may delegate his authority
only if expressly permitted to do so by the State
Constitution itself. See Tenn. Const. Art. II, §§ 1–2
(providing that “[t]he powers of the government shall
be divided into three distinct departments: legislative,
executive, and judicial,” and “[n]o person or persons
belonging to one of these departments shall exercise
any of the powers properly belonging to either of the
others, except in the cases herein directed or
permitted”); see also State v. Armstrong, 35 Tenn. 634,
653–54 (1856) (explaining that the Tennessee State
Constitution “declares (article 2, § 1) that ‘the powers
of government shall be divided in the three distinct
departments, the legislative, executive, and judicial.’
And sec. 2, that no one of these departments ‘shall
exercise any of the powers properly belonging to either
of the others, except in the cases herein directed or
permitted.’ Thus each department is limited within its
own appropriate sphere.”). Plaintiffs have pointed to
no provision of the Tennessee Constitution that permits the delegation of the Attorney General’s authority to represent the State in litigation. Thus, the
Attorney General cannot delegate his constitutional
authority to administer and enforce the law to a
separate branch of government. Richardson v. Tenn.
Bd. Of Dentistry, 913 S.W.2d 446, 453 (Tenn. 1995)
(citations omitted) (“The Tennessee Constitution
forbids an encroachment by one department upon the
powers or functions of another.”)

64a
The Attorney General also cannot delegate his
statutory authority. Any such delegation must be
authorized by statute. State ex rel. Comm’r of Transp.
v. Med. Bird Black Bear White Eagle, 63 S.W.3d 734,
772 (Tenn. Ct. App. 2001) (“The Attorney General is
the chief executive officer of the Legal Department of
state government. In this role, the Attorney General
has both extensive statutory power and the broad
common-law powers of the office except where these
powers have been limited by statute.”) Tennessee
statutes provide one exception to this rule – when the
Attorney General decides “not to defend the constitutionality and validity of any law,” the Speakers of the
Tennessee Senate and House of Representatives
“acting jointly, may employ legal counsel to defend the
constitutionality of such law.” Tenn. Code Ann. § 8-6109(c). This case does not present that situation. In
the present case, the Attorney General has declined to
bring suit against the Federal Government rather
than declining to defend the constitutionality of a law
enacted by the General Assembly. See generally Rich
v. Tenn. Bd. of Med. Exam’rs, 350 S.W.3d 919, 927
(Tenn. 2011) (“[H]ad the legislature intended to allow
the additional exception asserted . . . it would have
included specific language to that effect.”).
Plaintiffs argue that the State’s constitutional
separation-of-powers principles are flexible enough to
permit the General Assembly to litigate on the State’s
behalf. However, Richardson v. Tennessee Board of
Dentistry, a case relied on by Plaintiffs, affirms the exclusive authority of each department in its respective
sphere. 913 S.W.2d at 452-55 (holding that administrative agencies created by the legislature may not
encroach upon the province of the judicial department
by determining a statute’s constitutionality (citing
Tenn. Const. Art. II, §§ 1, 2)). The General Assembly,

65a
which is tasked “to make, alter, and repeal the law,”
may not attempt to “administer[] and enforce[] the
law” as well. Id. at 453.
Senate Joint Resolution 467 cannot amend the
constitutional or statutory responsibilities conferred
upon the Attorney General. In the Attorney General’s
letter, the Attorney General delegated his litigation
authority only “to the extent allowed by Tennessee
law.” AG Letter at 4. He cited no constitutional provision allowing such delegation, and Tennessee Code
Ann. § 8-6-302, the sole statutory provision cited, is
inapposite. That statute provides:
The attorney general and reporter, exercising
discretion and with the concurrence of the
head of the executive agency involved, may
permit, by express written authorization, staff
attorneys employed by the various departments, agencies, boards, commissions or
instrumentalities of the state to appear and
represent the state in a certain case or certain
classes of cases under the direction and
control of the attorney general and reporter.
Tenn. Code Ann. § 8-6-302. This statute permits delegation of the Attorney General’s authority only to an
executive agency and only under the Attorney General’s direction. Thus, the complaint fails to establish
that any of the Plaintiffs have standing to bring this
case.
Ripeness
Next, Defendants contend that Plaintiffs’ claims
are not ripe for review. The Medicaid Act allows the
Secretary either to withhold federal funding entirely
or in part when a state Medicaid program fails to
comply with federal law. At the time of the filing of

66a
the complaint, Tennessee had not amended its Medicaid plan to deny coverage to refugees, and, therefore,
HHS has not begun the administrative process to
deny federal Medicaid funds to Tennessee. Accordingly, Defendants argue that whether Tennessee
would suffer a loss of federal funds so great as to pass
the point at which financial pressure becomes impermissible coercion depends on future events that may
not occur. Plaintiffs have responded that the threat of
enforcement of the Medicaid laws makes their claim
ripe.
The ripeness doctrine arises “both from Article III
limitations on judicial power and from prudential
reasons for refusing to exercise jurisdiction.” Reno v.
Catholic Soc. Servs., 509 U.S. 43, 57 n.18 (1993). “The
ripeness doctrine not only depends on the finding of a
case and controversy and hence jurisdiction under
Article III, but it also requires that the court exercise
its discretion to determine if judicial resolution would
be desirable under all of the circumstances.” Brown v.
Ferro Corp., 763 F.2d 798, 801 (6th Cir. 1985). The
“basic rationale” of the ripeness doctrine “is to prevent
the courts, through avoidance of premature adjudication, from entangling themselves in abstract disagreements . . . and also to protect [entities] from judicial
interference until a[ ] . . . decision has been formalized
and its effects felt in a concrete way by the challenging
parties.” Abbott Labs. v. Gardner, 387 U.S. 136, 148–
49 (1967), abrogated on other grounds by Califano v.
Sanders, 430 U.S. 99 (1977). “A claim is not ripe for
adjudication if it rests upon contingent future events
that may not occur as anticipated, or indeed may not
occur at all.” Texas v. United States, 523 U.S. 296, 300
(1998) (citations omitted); see also Lake Carriers’ Ass’n
v. MacMullan, 406 U.S. 498, 506 (1972) (stating that
the ripeness doctrine asks whether “there is a

67a
substantial controversy, between parties having
adverse legal interests, of sufficient immediacy and
reality to warrant the issuance of a declaratory
judgment”).
Ripeness is present when “an injury that has not
yet occurred is sufficiently likely to happen to justify
judicial intervention” or “when the court would be in
no better position to adjudicate the issues in the future than it is now.” Pearson v. Holder, 624 F.3d 682,
684 (5th Cir. 2010). A “future injury” will be deemed
ripe if either “the injury is certainly impending” or
“there is substantial risk that the harm will occur.”
Susan B. Anthony List, 134 S. Ct. at 2341; see also
Caprock Plains Fed. Bank Ass’n v. Farm Credit
Admin., 843 F.2d 840, 845 (5th Cir. 1988) (concluding
that “too many ifs” that render an injury a “mere
potential[ity],” not just one or two that may render
such a result into a substantial possibility or even a
probability, will make a case unripe).
In evaluating a claim to determine whether it is
ripe for judicial review, the court must consider “the
fitness of the issues for judicial decision” and “the
hardship of withholding court consideration.” Nat’l
Park Hospitality Ass’n v. Dep’t of Interior, 538 U.S.
803, 808 (2003); see also Norton v. Ashcroft, 298 F.3d
547, 554 (6th Cir. 2002) (explaining that, to determine
whether a claim is ripe, a court must consider (1) the
likelihood that the injury alleged by the plaintiff will
ever occur; (2) whether the factual record is sufficiently developed to allow for adjudication; and (3) the
hardship to the parties from refusing consideration).
For pre-enforcement challenges, a case is ordinarily
ripe for review “only if the probability of the future
event occurring is substantial and of sufficient immediacy and reality to warrant the issuance of a

68a
declaratory judgment.” Nat’l Rifle Ass’n of America v.
Magaw, 132 F.3d 272, 284 (6th Cir. 1997). The
ripeness doctrine acknowledges the problem inherent
in adjudicating a dispute “anchored in future events
that may not occur as anticipated, or at all.” Id.
Here, Tennessee has not submitted a Medicaid
plan amendment changing the provision of medical
assistance to refugees. Nor have Plaintiffs alleged
that Tennessee is currently withholding medical
assistance from refugees. Because the State has taken
no action to deny Medicaid benefits to refugees at the
present time, the Federal Government has not considered the permissibility of any proposed changes in the
State’s provision of medical assistance to refugees or
rendered a final decision and, a fortiori, there has
been no judicial review of such a final decision. 42
U.S.C. §§ 1316(a), 1396c.
Additionally, there is nothing indicating that a
finding of non-compliance would lead to the withholding of all of the State’s federal Medicaid funding. CMS
has discretion to withhold all or a limited portion of a
State’s Medicaid funds when the State’s plan or the
administration of the plan do not conform to federal
requirements. 42 U.S.C. § 1396c; 42 C.F.R.
§ 430.35(d)(1). The injury that Plaintiffs claim, i.e.,
loss of all federal Medicaid funding, has not occurred
and may never occur. Thus, Plaintiffs’ claim “depends
on contingent future events that may not occur as
anticipated, or indeed may not occur at all.” Warshak
v. United States, 532 F.3d 521, 526 (6th Cir. 2008)
(citation omitted).
Plaintiffs assert that they face significant hardship given the possibility that Defendants could withhold up to $7 billion in Medicaid funds from Tennessee
each year. However, that concern is speculative.

69a
Plaintiffs have not established that they face significant hardship if this Court finds that it does not have
jurisdiction in light of the fact that the State has taken
no action to deny Medicaid benefits to refugees and,
therefore, no administrative proceedings against the
State or withholding of funds for noncompliance have
begun. See Warshak, 532 F.3d at 531–32 (explaining
that “[h]ardship is difficult to maintain” when plaintiffs can avail themselves of “alternatives short of a
pre-enforcement, facial attack on the enabling statute”); see also New York v. U.S. Dept. of Health and
Human Servs., 2008 WL 5211000 at *14 (S.D.N.Y.
Dec. 15, 2008) (citing Reno, 509 U.S. at 58) (“requiring
Plaintiffs to submit their plans through the plan
amendment process before Plaintiffs challenge the
process in court does not present the type of hardship
or dilemma contemplated in Abbott Laboratories”);
White v. Snider, 1994 WL 396415 at *3 (E.D. Pa. July
27, 1994) (emphasizing that the State had “not yet
even received an adverse decision” and HHS had not
disallowed federal funding or rejected an amendment
to the State’s plan). See generally Magaw, 132 F.3d at
284 (citation omitted) (noting that the ripeness
doctrine prevents courts “from entangling themselves
in abstract disagreements”).
Plaintiffs also contend that hardship is shown by
the fact that they have alleged a violation of the Tenth
Amendment to the United States Constitution8 and
that a declaratory judgment would resolve any uncertainty faced by Plaintiffs in deciding how to proceed
with providing (or not providing) Medicaid benefits to
8 The Tenth Amendment provides that “[t]he powers not delegated to the United States by the Constitution, nor prohibited by
it to the States, are reserved to the States respectively, or to the
people.”

70a
refugees within the State. Defendants have correctly
pointed out that the Declaratory Judgment Act does
not allow Plaintiffs to bypass the ripeness
requirement.
“It is clear that the declaratory judgment procedure is available in the federal courts only in cases
involving actual controversies and may not be used to
obtain an advisory opinion in a controversy not yet
arisen.” Marek v. Navient Corp., 2017 WL 32943 at *1
(N.D. Ohio Jan. 4, 2017) (quoting United Pub. Workers
of Am. (C.I.O.) v. Mitchell, 330 U.S. 75, 116 (1947)).
“The requirements of standing, ripeness, and mootness guard against the issuing of advisory opinions.”
Celebrezze v. U.S. Dep’t of Transp., 766 F.2d 228, 232
(6th Cir. 1985); see also Briggs v. Ohio Elections
Comm’n, 61 F.3d 487, 493 (6th Cir. 1995) (noting that
a court is “obliged under Article III to limit its
jurisdiction to ripe cases, to avoid issuing advisory
opinions based upon hypothetical situations.”).
Plaintiffs have taken no steps to deny Medicaid or
any other benefits to refugees, and, thus, their request
for a declaratory judgment is the type of “premature
adjudication” that the ripeness doctrine is meant to
avoid. See Ky. Press Ass’n, Inc. v. Kentucky, 454 F.3d
505, 509 (6th Cir. 2006) (citations omitted) (“Ripeness
is a justiciability doctrine designed to prevent the
courts, through premature adjudication, from entangling themselves in abstract disagreements. Ripeness
becomes an issue when a case is anchored in future
events that may not occur as anticipated, or at all.”).
Accordingly, the Court finds that the action is not ripe
for judicial review.

71a
Preclusion
Next, Defendants contend that this Court’s review
of Plaintiffs’ claim is precluded by the Medicaid Act
because that Act provides an administrative process
that culminates in appellate court review. In support
of their argument, Defendants rely on Thunder Basin
Coal Co. v. Reich, 510 U.S. 200 (1994), which provides
that, when a statute provides for direct appellate
review “of final agency actions, [courts] shall find that
Congress has allocated initial review to an administrative body [when] such intent is ‘fairly discernible in
the statutory scheme.”’ Id. at 207 (citation omitted).
In that case, the Court held that a district court lacked
authority to enjoin enforcement proceedings of the
Mine Safety and Health Administration. The Court
explained that the review structure established by the
Mine Act, which provided for direct review of final
agency action in the court of appeals, “demonstrate[d]
that Congress intended to preclude challenges” —
including constitutional challenges — prior to the
completion of agency proceedings. Id. at 208, 215.
Because the Mine Act provided a “detailed structure”
for review of enforcement actions, even if the constitutional claim could not be addressed by the agency
initially, it could be “meaningfully addressed in the
Court of Appeals.” Id. at 207, 215.
In the present case, as in Thunder Basin, the
Medicaid Act sets out an administrative process pursuant to which the State may be heard regarding a
withholding of payment for non-compliance. 42 U.S.C.
§§ 1316, 1396c. If the State is aggrieved by the
agency’s decision, the State may petition for review in
a federal court of appeals. 42 U.S.C. § 1316(a)(3).
Plaintiffs do not dispute that a plaintiff asserting
a non-constitutional claim challenging a provision of

72a
the Medicaid Act would be precluded from litigating
in district court. Instead, they argue that their claim
is not precluded because the question presented to
this Court is one of constitutional interpretation, i.e.,
whether the Federal Government’s Medicaid requirements comply with the United States Constitution.
According to Plaintiffs, § 1316 governs only the
process for determining whether the State’s Medicaid
plan conforms to the requirements for approval under
the Medicaid Act.
In Elgin v. United States Department of the
Treasury, 567 U.S. 1 (2012), the Supreme Court
looked at the question of whether district courts may
hear constitutional challenges to statutes before an
administrative body has ruled in the matter and determined that they may not. The Elgin plaintiffs were
federal employees who were terminated because they
failed to register for the Selective Service. Id. at 6.
They filed suit challenging the constitutionality of the
statute barring anyone failing to register for the
Service from employment in an Executive Agency. Id.
at 7. The District Court concluded that it had jurisdiction to hear the constitutional claims, even though the
Civil Service Reform Act (“CSRA”) provided an administrative process to challenge adverse employment
actions, including an appeal to the Court of Appeals
for the Federal Circuit, and the plaintiffs had not
availed themselves of that process. Id. at 7–8. The
Supreme Court stated the issue as whether “the
CSRA provides the exclusive avenue to judicial review
when a qualifying employee challenges an adverse
employment action by arguing that a federal statute
is unconstitutional.” Id. at 5. The Court held that even
employees bringing constitutional challenges to
federal statutes must do so within the judicial review
framework established by that particular Act. Id. at

73a
21–23. In making its decision, the Court looked at its
decision in Thunder Basin and determined “[l]ike the
statute in Thunder Basin, the CSRA does not foreclose
all judicial review of petitioners’ constitutional claims,
but merely directs that judicial review shall occur in
the Federal Circuit.” Id. at 10. Likewise, the Medicaid
Act provides for judicial review in the United States
Court of Appeals for the circuit in which the state is
located.
Because the Medicaid Act precludes review of
Plaintiffs’ claim in this Court, the Court lacks subject
matter jurisdiction over Plaintiffs’ claim that it is
being coerced to provide Medicaid benefits to refugees.
In summary, the motion to dismiss for lack of subject matter jurisdiction is granted on the grounds of
lack of standing and ripeness on Plaintiffs’ claim that
the Federal Government coerces it to expend significant sums of money to support the federal refugee
program, including but not limited to the Medicaid
program. The motion to dismiss for lack of subject
matter jurisdiction on the ground of preclusion is
granted only as to any expenditures under the
Medicaid program.
Motion to Dismiss for Failure to State a Claim
In deciding a Rule 12(b)(6) motion to dismiss, a
court must construe the complaint in the light most
favorable to the plaintiff, accept all factual allegations
as true, draw all reasonable inferences in favor of the
plaintiff, and determine whether the complaint
contains “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the

74a
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). “Determining whether a complaint states a plausible claim
for relief will [ultimately] . . . be a context-specific task
that requires th[is Court] to draw on its judicial
experience and common sense.” Id. at 679.
Plaintiffs contend that provisions of the Welfare
Reform Act of 1996 and the Refugee Act of 1980 exceed
Congress’s authority under the Spending Clause and
violate the Tenth Amendment by compelling Tennessee to subsidize the Refugee Resettlement Program.
According to Plaintiffs, federal requirements that
Plaintiffs expend state funds to cover refugees
through Medicaid and other programs interfere with
Plaintiffs’ right to appropriate state funds as they see
fit. They argue that the Federal Government’s ability
to withhold Medicaid funding if the State refuses to
expend funds to support refugee medical assistance is
unconstitutional. Defendants have responded that
Tennessee is not compelled to subsidize the Refugee
Resettlement Program by financial inducement or
otherwise and that the Refugee Act merely authorizes
federally funded assistance and social services to
refugees. They also assert that states have no authority under the Tenth Amendment to exclude refugees
or deny them benefits because this would contravene
national immigration policy as embodied by the
Welfare Reform Act.
The Supreme Court discussed the difficulty of
“ascertaining the constitutional line between federal
and state power” in New York v. United States, 505
U.S. 144 (1992).
At least as far back as Martin v. Hunter’s
Lessee, 1 Wheat. 304, 324, 4 L. Ed. 97 (1816),
the Court has resolved questions “of great

75a
importance and delicacy” in determining
whether particular sovereign powers have
been granted by the Constitution to the
Federal Government or have been retained by
the States.
These questions can be viewed in either of two
ways. In some cases the Court has inquired
whether an Act of Congress is authorized by
one of the powers delegated to Congress in
Article I of the Constitution. See, e.g., Perez v.
United States, 402 U.S. 146, 91 S. Ct. 1357, 28
L. Ed.2d 686 (1971); McCulloch v. Maryland,
4 Wheat. 316, 4 L. Ed. 579 (1819). In other
cases the Court has sought to determine
whether an Act of Congress invades the
province of state sovereignty reserved by the
Tenth Amendment. See, e.g., Garcia v. San
Antonio Metropolitan Transit Authority, 469
U.S. 528, 105 S. Ct. 1005, 83 L. Ed.2d 1016
(1985); Lane County v. Oregon, 7 Wall. 71, 19
L. Ed. 101 (1869). In a case like these, involving the division of authority between federal
and state governments, the two inquiries are
mirror images of each other. If a power is
delegated to Congress in the Constitution, the
Tenth Amendment expressly disclaims any
reservation of that power to the States; if a
power is an attribute of state sovereignty
reserved by the Tenth Amendment, it is
necessarily a power the Constitution has not
conferred on Congress. See United States v.
Oregon, 366 U.S. 643, 649, 81 S. Ct. 1278,
1281, 6 L. Ed.2d 575 (1961); Case v. Bowles,
327 U.S. 92, 102, 66 S. Ct. 438, 443, 90 L. Ed.
552 (1946); Oklahoma ex rel. Phillips v. Guy

76a
F. Atkinson Co., 313 U.S. 508, 534, 61 S. Ct.
1050, 1063, 85 L. Ed. 1487 (1941).
New York, 505 U.S. at 155–56. Thus, “[t]he States
unquestionably do retai[n] a significant measure of
sovereign authority . . . to the extent that the
Constitution has not divested them of their original
powers and transferred those powers to the Federal
Government.” Garcia, 469 U.S. at 549. However, “the
Supremacy Clause gives the Federal Government ‘a
decided advantage in th[e] delicate balance’ the
Constitution strikes between state and federal
power.” New York, 505 U.S. at 159 (quoting Gregory v.
Ashcroft, 501 U.S. 452, 460 (1991)).
Article I of the United States Constitution contains the Spending Clause, pursuant to which Congress possesses the “Power to lay and collect Taxes,
Duties, Imposts and Excises, to pay the Debts and
provide for the common Defence and general Welfare
of the United States.” U.S. Const. Art. I, § 8, cl. 1. As
noted by Defendants, Congress has latitude under the
Spending Clause “to further broad policy objectives by
conditioning the receipt of federal moneys upon compliance by the recipient with federal statutory and
administrative directives.” South Dakota v. Dole, 483
U.S. 203, 206–07 (1987) (citation omitted). This
includes the power to “fix the terms under which it
disburses federal money to the States.” Suter v. Artist
M, 503 U.S. 347, 356 (1992) (citing Pennhurst St. Sch.
& Hosp. v. Halderman, 451 U.S. 1, 15 (1981)); see also
Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S. 519,
576–77 (explaining that Congress may place conditions on states’ receipt of federal funds “to create
incentives for States to act in accordance with federal
policies,” without offense to the Tenth Amendment);
United States v. Am. Library Ass’n, Inc., 539 U.S. 194,

77a
203 (2003) (citation omitted) (“Congress has wide
latitude to attach conditions to the receipt of federal
assistance in order to further its policy objectives.”).
The choice “between accepting the money and the
conditions, or declining both” may be a “hard one,”
Kansas v. United States, 214 F.3d 1196, 1203–04 (10th
Cir. 2000), but states may resort to “the simple expedient of not yielding to federal blandishments when
they do not want to embrace the federal policies as
their own.” Nat’l Fed, 132 S. Ct. at 2603. See also
Pennhurst St. Sch. & Hosp., 451 U.S. at 17 (likening
Spending Clause legislation to a “contract” whereby
“in return for federal funds, the States agree to comply
with federally imposed conditions”).
In upholding statutes in which Congress has
attached strings to the receipt of federal grants, the
Supreme Court has recognized limitations to
Congress’s power under the Spending Clause. They
include: (1) the exercise of the spending power must
be in pursuit of the general welfare; (2) conditions on
the receipt of federal funds must be unambiguous;
(3) conditions must be related to the federal interest
in a particular national project or program; and (4) the
legislation cannot induce the states to engage in
activities that would be unconstitutional. Dole, 483
U.S. at 207–08 (permitting federal law conditioning
receipt of highway construction funds on states’
raising minimum drinking age). Additionally, “the
financial inducement offered” may not be “so coercive
as to pass the point at which ‘pressure turns into compulsion.’” Id. at 211 (quoting Steward Machine Co. v.
Davis, 301 U.S. 548, 590 (1937) (equating impermissible “coercion” with “destroying or impairing the
autonomy of the states”).

78a
In the present case, Plaintiffs seek a declaration
that, due to Tennessee’s withdrawal from the Refugee
Resettlement Program, the State should no longer be
required to accept refugees for resettlement and/or be
forced to expend State funds to cover the cost of the
health-care services the refugees receive under Medicaid. According to Plaintiffs, the Federal Government’s implementation of the Refugee Act, 8 U.S.C.
§ 1522, and the Welfare Reform Act, 8 U.S.C. § 1612,
impermissibly intrudes on Tennessee’s sovereignty.
Plaintiffs contend that the Federal Government’s
actions violate the Tenth Amendment by “commandeering” State funds and “coercing” the State to
expend funds to provide benefits to refugees. (Compl.
¶¶ 1, 18, 23.) Defendants have responded that the
states have no reservoir of authority under the Tenth
Amendment to exclude refugees or to deny refugees
Medicaid benefits in contravention of the national
immigration policy embodied by the Welfare Reform
Act.
It is undisputed that “[t]he authority to control
immigration … is vested solely in the Federal government” by the Naturalization Clause of Article I of the
United States Constitution. Takahashi v. Fish &
Game Comm’n, 334 U.S. 410, 416 (1948). Courts “have
long recognized the preeminent role of the Federal
Government with respect to the regulation of aliens
within our borders.” Toll, 458 U.S. at 10 (citing
Mathews v. Diaz, 426 U.S. 67 (1976); Graham, 403
U.S. at 377–380; Takahashi, 334 U.S. at 418–20;
Hines v. Davidowitz, 312 U.S. 52, 62 - 68 (1941); Truax
v. Raich, 239 U.S. 33, 42 (1915)). “The Government’s
broad authority over immigration was first
announced more than one-hundred years ago in The
Chinese Exclusion Case, 130 U.S. 581, 9 S. Ct. 623, 32
L. Ed. 1068 (1889).” Detroit Free Press v. Ashcroft, 303

79a
F.3d 681, 685 (6th Cir. 2002); see also Arizona v.
United States, 567 U.S. 387, 394 (2012) (citing Toll,
458 U.S. at 10) (“The Government of the United States
has broad, undoubted power over the subject of immigration and the status of aliens.”); Fiallo v. Bell, 430
U.S. 787, 792 (1977) (“[O]ver no conceivable subject is
the legislative power of Congress more complete.”).
The Federal Government not only has the authority to establish the conditions for aliens’ admission to
the United States but also “extensive powers to
regulate . . . the conditions under which [they] remain
. . . .” Korab, 797 F.3d at 580. “When the national
government by … statute has established rules and
regulations touching the rights, privileges, obligations, or burdens of aliens as such . . . “[n]o state can
add to or take from [its] force and effect.” Hines, 312
U.S. at 62–63. Accordingly, the states “can neither
add to nor take from the conditions lawfully imposed
by Congress upon admission, naturalization and
residence of aliens in the United States or the several
states.” Toll, 458 U.S. at 11 (citation omitted).
In Graham v. Richardson, the Supreme Court was
faced with the issue of whether a state could favor
United States citizens over aliens in the distribution
of welfare benefits.9 In holding that the state statutes
at issue denying welfare benefits to resident aliens
who had not resided in the United States for a specific
number of years violated the Equal Protection Clause,
the Court explained that “justification of limiting

9 Graham involved a Pennsylvania law that denied public assistance to legal residents and an Arizona law that denied federally
subsidized benefits to legal residents who had not lived within
the United States for fifteen years.

80a
expenses is particularly inappropriate and unreasonable when the discriminated class consists of
aliens. Aliens like citizens pay taxes and may be called
into the armed forces . . . . [A]liens may live within a
state for many years, work in the state and contribute
to the economic growth of the state.”10 Id. at 376–80.
The Court concluded that the state statutes were
“constitutionally impermissible” because they conflicted with federal policy, declared by Congress,
regarding the admission of aliens and their right to
the full and equal benefit of state laws. In so doing,
the states “encroached upon exclusive federal power.”
Id. at 376-80. “[When] the federal government, in the
exercise of its superior authority in [the immigration]
field, has enacted a complete scheme of regulation …
states cannot … conflict or interfere with, curtail or
complement, the federal law, or enforce additional or
auxiliary regulations.” Id. at 378 (citation omitted).
The Graham Court pointed out that, “[u]nder Art.
I, § 8, cl. 4, of the Constitution, Congress’ power is to
‘establish an uniform Rule of Naturalization,’” and a
“congressional enactment construed so as to permit
state legislatures to adopt divergent laws on the
subject of citizenship requirements for federally
supported welfare programs would appear to
contravene this explicit constitutional requirement of
uniformity.” Id.; see also Mathews, 426 U.S. at 81
(holding that Congress’s broad power over naturalization and immigration encompasses the power to
condition an alien’s eligibility for participation in a
federal medical insurance program). A state “has no
power to interfere,” Nyquist v. Mauclet, 432 U.S. 1, 10
10 The Graham Court noted that Takahashi v. Fish & Game
Commission established the equal-protection rights of aliens. Id.
at 382.

81a
(1977), with the exercise of Congress’s authority to
“establish[ ] rules and regulations touching the rights
[and] privileges …of aliens.” Hines, 312 U.S. at 62–63.
It is a “plenary federal power” in which the “States do
not share.” Bruns, 750 F.3d at 66 (citations omitted);
see also Puerto Rico v. Branstad, 483 U.S. 219, 228
(1987) (noting that the Tenth Amendment’s reservation of state power does not supersede duties “imposed
upon the States by the Constitution itself”).
After Graham, the Supreme Court “has repeatedly struck down an array of state statutes denying
[lawfully present] aliens equal access to licenses,
employment, or state benefits,” Korab, 797 F.3d at 578
(citations omitted), “[i]n each case . . . reasserting its
commitment to [Graham’s] holding.” Dandamudi v.
Tisch, 686 F.3d 66, 73 (2d Cir. 2012) (holding that a
statute’s requirement that an applicant for a pharmacist’s license be either a United States citizen or an
alien lawfully admitted for permanent residence in
the United States violated the Equal Protection and
Supremacy Clauses of the United States
Constitution).
Congress has declared immigrant self-sufficiency
to be an element of national immigration policy, 8
U.S.C. § 1601(1), (2), and to promote that goal it exercised its authority under the Naturalization Clause to
enact the Welfare Reform Act which governs the
extent to which aliens may have access to the public
benefits that are available to United States citizens.
See Korab, 797 F.3d at 580. The Welfare Reform Act
includes the directive that participating states must
furnish Medicaid benefits to refugees for the first
seven years following their arrival in this country.
8 U.S.C. §§ 1612(b)(1), (2)(A)(i), 1613(b)(1). Thus,
instead of “commandeering” state funds to support

82a
health-care coverage for refugees, the Welfare Reform
Act permits Tennessee to reduce expenditures that it
would otherwise be required to make.
A state’s obligation under the Medicaid Act to
cover lawfully present aliens predates and arises independently of the Refugee Act. See 45 C.F.R. § 248.50
(1973). If the Refugee Resettlement Program were repealed, states participating in the Medicaid program
would still be obligated to provide coverage to refugees
to the extent required by the Welfare Reform Act.
And, as pointed out by Defendants, under Graham,
the State would be compelled to continue covering
health-care services for refugees for so long as they
continued to meet all other eligibility requirements.
“A duty imposed on states by the Constitution can
hardly be said to violate the Tenth Amendment’s reservation of unenumerated powers to the states.” Texas
v. United States, 106 F.3d 661, 666 (5th Cir. 1997)
(citing Puerto Rico v. Branstad). Accordingly, Plaintiffs have not alleged a cognizable claim of violation of
the Tenth Amendment or the Spending Clause.
To the extent that Plaintiffs have attempted to
rely on County of Santa Clara v. Trump, 275 F. Supp.
3d 1196, 1201 (N.D. Cal. 2017), in support of their
argument, this case is inapposite.11 In that case, the
court looked at President Donald J. Trump’s Executive Order which threatened to deny federal money to
and take enforcement action against an undefined
group of so-called “sanctuary jurisdictions.” The court
issued a permanent injunction barring enforcement of
11 As mentioned in footnote one, Plaintiffs submitted this case
as “supplemental authority” post-briefing. (ECF No. 44.) However, Plaintiffs have made no arguments or analysis concerning
the case as to how it supports their position.

83a
the Executive Order on the ground that it violated
numerous constitutional safeguards, including separation of powers. In the order, the court noted that the
“Constitution vests the spending powers in Congress,
not the President, so the Executive Order cannot
constitutionally place new conditions on federal
funds.” Id. at 1202. The present case involves a
Congressional act as opposed to an executive order,
and no separation of powers issue is implicated.
Plaintiffs also attempt to rely on Printz v. United
States, 521 U.S. 898 (1997), which considered the
constitutionality of the Brady Handgun Violence
Prevention Act, 18 U.S.C. § 922, a federal law requiring state and local law enforcement officers to conduct
background checks and perform other tasks related to
gun sales. The Court held that the Act violated the
residual sovereignty of the states by imposing an
unconditional legal obligation on state law
enforcement officials to conduct background checks on
prospective handgun purchasers. Id. at 933–34. “The
Federal Government . . . may not compel the States to
enact or administer a federal regulatory program.” Id.
at 933 (citation omitted); see also Cutter v. Wilkinson,
423 F.3d 579, 589 (6th Cir. 2005) (“Together New York
[v. United States, 505 U.S. 144 (1992)] and Printz
stand for the unexceptionable proposition that Congress cannot force the states to enact or administer a
federal regulatory scheme.”). However, states can
enter into voluntary contracts with the federal government whereby they agree to legislate according to
federal terms in exchange for some federal benefit or
forbearance, New York, 505 U.S. at 166–67, as in the
present case.
Finally, Plaintiffs contend that the threatened
loss of federal Medicaid funding to coerce support of

84a
the federal refugee program is not constitutional
under National Federation of Independent Business v.
Sebelius (“NFIB”). In NFIB, the Supreme Court
examined the constitutionality of the Patient Protection and Affordable Care Act, Pub. L. No. 111-148, 124
Stat. 119 (2010) (the “ACA”). As originally drafted, the
ACA provided substantial federal funds to states to
expand their Medicaid programs, but, if states chose
not to accept the additional funds, they would not only
forgo those funds but lose all existing federal funds as
well. In a plurality opinion,12 the Court found that
this provision of the ACA was not a valid exercise of
Congress’s spending power because it would coerce
states to either accept the expansion or risk losing
existing Medicaid funding.13 567 U.S. at 671–678.
In reaching this decision, the plurality emphasized that decisions of the Court had “repeatedly
characterized . . . Spending Clause legislation as
‘much in the nature of a contract.’” Id. at 576–776
(quoting Barnes v. Gorman, 536 U.S. 181, 186 (2002)).
As such, states cannot freely accept funds when they
are coerced into doing so by lopsided terms of the
grant. Id. at 577. After a discussion of Federalism
principles, the plurality stated:
12 Seven Justices concluded that taking away existing Medicaid
funding from states which declined to sign up for the new expanded Medicaid program was unconstitutional but were unable
to agree on a single rationale. Chief Justice John Roberts, in a
plurality opinion joined by Justice Stephen Breyer and Justice
Elena Kagan, offered one rationale for that holding. A joint
dissent by Justice Antonin Scalia, Justice Anthony Kennedy,
Justice Clarence Thomas, and Justice Samuel Alito offered
another.
13 The Court’s decision on the other portions of the ACA that
were challenged in NFIB is not pertinent to this case.

85a
We have upheld Congress’s authority to condition the receipt of funds on the States’ complying with restrictions on the use of those funds,
because that is the means by which Congress
ensures that the funds are spent according to
its view of the “general Welfare.” Conditions
that do not here govern the use of the funds,
however, cannot be justified on that basis.
Id. at 585.
While Congress has “authority to condition the
receipt of funds on the States’ complying with restrictions on the use of those funds,” id., the plurality
viewed the ACA as tying traditional Medicaid grants,
not to compliance with restrictions on their use, but to
implementing the expansion and, therefore, “pressur[ed] the States to accept policy changes.” Id. at 580.
The threatened loss of all Medicaid grants “pass[ed]
the point at which pressure turns into compulsion,”
leaving states “with no real option but to acquiesce” in
the expansion. Id. at 582. The plurality emphasized
that the expansion could not be considered merely an
adjustment to the existing program that Congress
was entitled to make as it evolved. That is, the conditions the ACA imposed on the states did not “govern
the use of” the new funds granted to the states but,
instead, took “the form of threats to terminate other
significant independent grants” already in existence.
Id. at 580. Thus, the expansion was “in reality a new
program,” a transformation of Medicaid from a
health-care program for the indigent into a healthinsurance program for a significant portion of the nonelderly population – a change that the states could not
have anticipated. Id. at 582-83. Chief Justice Roberts
explained that the expansion

86a
accomplishe[d] a shift in kind, not merely
degree. The original program was designed to
cover medical services for four particular categories of the needy: the disabled, the blind, the
elderly, and needy families with dependent
children.... Previous amendments to Medicaid
eligibility merely altered and expanded the
boundaries of these categories. Under the
[ACA], Medicaid ... is no longer a program to
care for the neediest among us, but rather an
element of a comprehensive national plan to
provide universal health insurance coverage.
Id.14
In contrast, the refugee-coverage provision of the
Welfare Reform Act does not condition the states’
receipt of federal Medicaid funds on their implementation of an entirely new program. Graham v.
14 The plurality found a Spending Clause violation because it
determined that the Medicaid program expansion was a new
program, participation in which was a condition for continued
receipt of pre-ACA Medicaid funds and because the loss of preACA Medicaid funds would have been so consequential to the
states that states had no real option to refuse. Thus, the expansion placed a condition on the receipt of funds that did not govern
the use of those funds, and the condition was unduly coercive.
While the joint dissent would have held the expansion provision
unconstitutional based on the plurality’s analysis, they took the
coercion analysis a step further and would have invalidated the
expansion based on a finding of coercion alone. Because the
plurality’s rationale was narrower, it is considered to be the
holding of the Court. See Marks v. United States, 430 U.S. 188,
193 (1977) (citation omitted) (deciding that, when a majority of
the Supreme Court agrees on a result but “no single rationale
explaining the result enjoys the assent of five Justices, ‘the holding of the Court may be viewed as that position taken by those
Members who concurred in the judgments on the narrowest
grounds’”).

87a
Richardson announced the states’ obligation to extend
Medicaid coverage to lawfully present aliens in 1971;
the Secretary codified that obligation by regulation in
1973; and Congress ratified the Secretary’s decision
when it passed the Omnibus Budget Reconciliation
Act of 1986, ten years before the Welfare Reform Act.
For decades Tennessee has accepted federal Medicaid
funds based on the understanding that it must cover
lawfully present aliens under its Medicaid program.
The refugee coverage provision narrowed rather than
expanded that requirement by placing a time limit on
the states’ obligation to expend state funds on healthcare services for refugees.
Plaintiffs contend that, despite its longevity,
changed conditions and modifications to the Refugee
Resettlement Program have transformed it into a new
program that Tennessee could not have foreseen.
According to Plaintiffs, Tennessee’s participation in
the Medicaid program predates the advent of the
refugee resettlement program in 1980 as well as the
elimination of federal funding for the program in
1991. They argue that changes in the refugee
resettlement program have resulted in a radically
different program than originally intended. Plaintiffs
claim to have been surprised by the fact that the
Federal Government did not honor Tennessee’s decision to withdraw from the program in 2007 but
instead continued it by using federal contractors while
increasing the overall number of refugees. They characterize these changes as ones Tennessee could not
have anticipated and that caused a “shift in kind, not
merely degree” as was found to be unconstitutional in
NFIB.
Despite Plaintiffs’ arguments, this Court finds
that the requirement of providing state funding for

88a
refugees in exchange for federal Medicaid funds
cannot be considered “new” as was the ACA expansion
provision in NFIB. In NFIB, “the condition at issue
was ‘new’ in two senses of the word: [the condition]
had been recently enacted at the time of the litigation,
and [the condition] imposed additional requirements
with which States had to comply to continue receiving
preexisting federal funding.” Miss. Comm’n on Envtl.
Quality v. E.P.A., 790 F.3d 138, 179 (D.C. Cir. 2015).
As explained above, the requirement to provide
Medicaid to refugees is long standing rather than
being recently enacted at the time of this litigation.
Additionally, no additional requirements have been
imposed on Tennessee in order for it to receive
preexisting federal funding.
Moreover, there is no federal requirement that a
state participate in the refugee program in order for
that state to be required to provide benefits to
refugees. The Federal Government’s practice of relying on private non-profit organizations to administer
refugee resettlement in states that elect to discontinue participation in the refugee program under
“Wilson/Fish” programs was established by at least
1999.
Plaintiffs cannot now claim to be surprised by the
cessation of reimbursement for the cost of providing
Medicaid coverage to refugees since Congress ceased
to appropriate funds for that purpose in 1991, a fact
acknowledged in the complaint.15 Despite the lack of
15 “Federal funds initially supported the federal government’s
refugee resettlement program, but eventually federal reimbursements to the states were reduced and, by 1991, eliminated
entirely. States thereby became responsible for costs of the
program.” (Compl. ¶ 27).

89a
reimbursement, the State has continued to participate in the Medicaid program.
Finally, Plaintiffs maintain that the growing
number of refugees admitted in recent years has
increased the cost of refugee health-care to the states
and was not anticipated at the time Tennessee
entered into the program. To the contrary, as pointed
out
by
Defendants,
periodic
international
humanitarian crises accompanied by refugees seeking
to resettle in the United States has always been foreseeable. Under the Refugee Act of 1980, “the number
of refugees who may be admitted” each year is not
fixed or determined according to a prescribed formula,
but “shall be such number as the President determines, before the beginning of the fiscal year … is
justified by humanitarian concerns or is otherwise in
the national interest.” 8 U.S.C. § 1157(a)(2). The
President may also admit additional numbers of
refugees as needed to meet “unforeseen emergency
refugee situation[s].” Id. § 1157(b). Given the history
of recurrent refugee crises and the purpose of the
Refugee Act, variation in the numbers of annual
refugee admissions are to be expected.
None of the events described by Plaintiffs represents a departure from the understanding pursuant to
which Tennessee has accepted Federal Medicaid
funds for over forty years – that it must cover lawfully
present aliens, including refugees, under its Medicaid
program. Therefore, Plaintiffs have not shown that
the requirement that Tennessee provide Medicaid
coverage for refugees for seven years is a new program
within the ambit of NFIB.
Plaintiffs also contend that the amount of federal
Medicaid funds Tennessee might lose if they do not
comply with the requirement to provide Medicaid to

90a
refugees is so large that they have no choice but to
continue with the program. The NFIB Court looked at
the amount of funding at stake for the states in deciding that the expanded Medicaid program under the
ACA was unconstitutionally coercive. Chief Justice
Roberts noted that “the financial ‘inducement’ Congress has chosen is much more than ‘relatively mild
encouragement’ – it is a gun to the head,” NFIB, U.S.
at 581; however, the Court did not specify a point at
which financial inducement becomes coercion.
Instead, the Court commented that Steward Machine
Co. did not attempt to fix a line at which persuasion
gives way to coercion, and the NFIB Court declined to
do so as well. “It is enough for today that wherever
that line may be, this statute is surely beyond it.” Id.
at 585.
While Tennessee could potentially lose all of its
federal Medicaid funds, the Federal Government
could withhold only part of the State’s federal Medicaid funding.16 At this juncture, this Court cannot
ascertain what amount the State is faced with losing.
Although inherent in Medicaid’s provisions for the
process of amending a state’s Medicaid plan is the
possibility that the Federal Government might deny a
proposed amendment and withhold all or part of the
funding, there is no allegation the Federal Government has made such a threat to Tennessee. This case
does not present the situation in NFIB in which, in
exchange for new conditions to a federal program,
Congress not only offered states additional money but
16 The Complaint alleges that “[f]rom 2008, when Tennessee
withdrew from the refugee resettlement program, until 2016, the
federal contribution to Medicaid ranged from over $4 billion
($4,566,651,300.00) to nearly $7 billion and has represented 17%
to 21% of Tennessee’s budget.” (Compl. ¶ 35.)

91a
also threatened to stop providing the funding it currently distributed for that program if those conditions
were not accepted.
Moreover, the amount of the loss of funding is only
one element of the coercion test adopted by the NFIB
plurality. The State must also show that Congress has
created a new condition that is different from the
original program Congress is purporting to modify
and is using that program’s funding as leverage to
force the states to accept the new condition. NFIB, 567
U.S. at 583-84. As discussed above, Plaintiffs have
failed to make this showing and, therefore, have failed
to state a claim upon which relief may be granted.
For these reasons, Defendants’ motion to dismiss
is GRANTED, and judgment will be entered in favor
of Defendants.
IT IS SO ORDERED.
s/ S. Thomas Anderson
S. THOMAS ANDERSON
CHIEF UNITED STATES
DISTRICT JUDGE
Date: March 19, 2018

92a
No. 18-5478
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
STATE OF TENNESSEE,
BY AND THROUGH THE
TENNESSEE GENERAL
ASSEMBLY, ET AL.,
Plaintiffs-Appellants,
v.
UNITED STATES
DEPARTMENT OF STATE,
ET AL.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

FILED
Oct 16, 2019
DEBORAH S.
HUNT, Clerk
ORDER

BEFORE: COLE, Chief Judge and BOGGS,
Circuit Judge.*
The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.

* After oral argument, Judge Julia Smith Gibbons was unavailable to participate in the panel’s decision. Chief Judge Cole and
Judge Boggs act as quorum pursuant to 28 U.S.C. § 46(d).

93a
ENTERED BY ORDER OF
THE COURT
__________________________
Deborah S. Hunt, Clerk

